<html>
<title> - KEEPING COLLEGE WITHIN REACH: SUPPORTING HIGHER EDUCATION OPPORTUNITIES FOR AMERICA'S SERVICEMEMBERS AND VETERANS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





KEEPING COLLEGE WITHIN REACH: SUPPORTING HIGHER EDUCATION OPPORTUNITIES 
                                  FOR
                 AMERICA'S SERVICEMEMBERS AND VETERANS

=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON HIGHER EDUCATION
                    
                         AND WORKFORCE TRAINING

                         COMMITTEE ON EDUCATION
                         
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 11, 2013

                               __________

                           Serial No. 113-31

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                                    ______

                       U.S. GOVERNMENT PUBLISHING OFFICE 

82-663 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Rubeen Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Rauul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

Thomas E. Petri, Wisconsin           Rubeen Hinojosa, Texas,
Howard P. ``Buck'' McKeon,             Ranking Minority Member
    California                       John F. Tierney, Massachusetts
Glenn Thompson, Pennsylvania         Timothy H. Bishop, New York
Tim Walberg, Michigan                John A. Yarmuth, Kentucky
Matt Salmon, Arizona                 Suzanne Bonamici, Oregon
Brett Guthrie, Kentucky              Carolyn McCarthy, New York
Lou Barletta, Pennsylvania           Rush Holt, New Jersey
Joseph J. Heck, Nevada               Susan A. Davis, California
Susan W. Brooks, Indiana             David Loebsack, Iowa
Richard Hudson, North Carolina
Luke Messer, Indiana


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 11, 2013...............................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training...........................     1
        Prepared statement of....................................     3
    Hinojosa, Hon. Rubeen, Ranking Minority Member, Subcommittee 
      on Higher Education and Workforce Training.................     4
        Prepared statement of....................................     9

Statement of Witnesses:
    Kirk, Arthur F., Jr., president, Saint Leo University........    24
        Prepared statement of....................................    25
    Kitchner, Dr. Russell S., vice president for regulatory and 
      governmental relations, on behalf of American Public 
      University System..........................................    27
        Prepared statement of....................................    30
    Rhinehardt, Kimrey, the University of North Carolina.........    10
        Prepared statement of....................................    13
    Sauer, Ken, Ph.D., senior associate commissioner for research 
      and academic affairs, Indiana Commission for Higher 
      Education..................................................    71
        Prepared statement of....................................    73

Additional Submissions:
    Chairwoman Foxx, questions submitted for the record to:
        Dr. Kirk.................................................    88
        Dr. Kitchner.............................................    90
        Mrs. Rhinehardt..........................................    93
    Mr. Hinojosa:
        Petraeus, Hollister K., Assistant Director, Consumer 
          Financial Protection Bureau Office of Servicemember 
          Affairs, prepared statement of.........................     5
    Hudson, Hon. Richard, a Representative in Congress from the 
      State of North Carolina, questions submitted for the record 
      to Mrs. Rhinehardt.........................................    93
    Loebsack, Hon. David, a Representative in Congress from the 
      State of Iowa, questions submitted for the record to:
        Dr. Kirk.................................................    88
        Dr. Kitchner.............................................    90
        Mrs. Rhinehardt..........................................    93
        Dr. Sauer................................................    95
    Response to questions submitted:
        Dr. Kirk.................................................    89
        Dr. Kitchner.............................................    90
        Mrs. Rhinehardt..........................................    93
        Dr. Sauer................................................    95

 
                     KEEPING COLLEGE WITHIN REACH:
                      SUPPORTING HIGHER EDUCATION
                      OPPORTUNITIES FOR AMERICA'S
                     SERVICEMEMBERS AND VETERANS

                              ----------                              


                     Wednesday, September 11, 2013

                     U.S. House of Representatives

        Subcommittee on Higher Education and Workforce Training

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 12:03 p.m., in 
Room 2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Foxx, Walberg, Salmon, Heck, 
Brooks, Hinojosa, Tierney, Yarmuth, Bonamici, Holt, and 
Loebsack.
    Also present: Representative Kline.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
Heather Couri, Deputy Director of Education and Human Services 
Policy; Amy Raaf Jones, Education Policy Counsel and Senior 
Advisor; Brian Melnyk, Professional Staff Member; Krisann 
Pearce, General Counsel; Nicole Sizemore, Deputy Press 
Secretary; Emily Slack, Legislative Assistant; Alex Sollberger, 
Communications Director; Alissa Strawcutter, Deputy Clerk; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Kelly Broughan, Minority Education Policy Associate; Jamie 
Fasteau, Minority Director of Education Policy; Melissa 
Greenberg, Minority Staff Assistant; Eunice Ikene, Minority 
Staff Assistant; Brian Levin, Minority Deputy Press Secretary/
New Media Coordinator; Megan O'Reilly, Minority General 
Counsel; Rich Williams, Minority Education Policy Advisor; and 
Michael Zola, Minority Deputy Staff Director.
    Chairwoman Foxx. A quorum being present, the subcommittee 
will come to order. Good afternoon--it is just barely 
afternoon--and thank you for joining us today for our hearing 
on higher education opportunities for veterans and 
servicemembers.
    Before we begin, I would like to take a moment to remember 
the thousands of American lives that were lost on this day in 
2001 and for the Americans who lost their lives during the 
terror attack in Benghazi last year. We will never forget them.
    The men, women, and children who died will ever be in our 
thoughts and we will continue to pray for peace for their 
families. So I ask everyone to join my colleagues here for a 
moment of silence.
    Thank you.
    Mr. Hinojosa. May I make a remark on that?
    Chairwoman Foxx. You certainly may.
    Mr. Hinojosa. Thank you, Chairwoman Foxx.
    As we commemorate September 11th, I join my colleagues in 
the House and the Senate in honoring and remembering the lives 
of the victims and families of this terrible tragedy. Although 
it has been 12 years since the events of 9/11, our nation must 
never forget the men, the women, and children who lost their 
lives on that day.
    Chairwoman Foxx. Thank you.
    As we pause to remember the past today, it is fitting that 
we also hold this hearing to explore how we can move forward by 
supporting the brave men and women who serve the country, and 
especially those who have served in the wake of 9/11.
    America's veterans face unique challenges as they return to 
civilian life. Some struggle with disabilities and combat 
stress injuries as a result of their service. Many others are 
older than traditional college students, work full time, or 
have a family to support.
    Beginning with the enactment of the G.I. Bill in 1944, the 
federal government has implemented a number of programs and 
initiatives to support servicemembers and veterans who wish to 
earn a postsecondary degree or obtain valuable job skills. This 
commitment to our men and women in uniform continues to grow 
with the Post-9/11 G.I. Bill, which provides financial support 
to help cover the cost of tuition, fees, books, and housing at 
all types of colleges and universities.
    Since 2009 the Post-9/11 G.I. Bill has helped nearly 1 
million veterans and their families access a postsecondary 
education, and as more troops return from Iraq and Afghanistan, 
postsecondary institutions now face the largest influx of 
student veterans on campus since World War II. The higher 
education community has a responsibility to tailor programs and 
coursework to ensure the needs of this unique student 
population are met and taxpayer resources are used wisely and 
efficiently.
    Fortunately, many schools are rising to the challenge. A 
growing number of postsecondary institutions now offer more 
flexible course schedules, the ability for veterans to earn 
credit for skills learned outside the classroom, and online 
coursework that can be completed on a student's own time. Other 
institutions--proprietary schools in particular--are working 
with the business community to craft targeted programs that 
help veterans learn the skills necessary to compete for in-
demand jobs in the local economy.
    In my home state, University of North Carolina's 
Partnership for National Security not only coordinates with 
state business leaders but also works directly with military 
partners to develop a number of initiatives geared toward 
supporting our men and women in uniform, including special 
degree programs, pre-deployment education courses, internships, 
and fellowships.
    Additionally, the UNC SERVES program collects data to 
provide university leaders with a better understanding of the 
needs and outcomes of the active duty and veteran student 
population. This information will help prospective students 
make more informed decisions about their postsecondary pathway 
and it will also encourage institutions to establish special 
outreach efforts such as student groups, orientation events, 
and counseling offices that help veterans successfully 
transition into academic life.
    With the Higher Education Act due for reauthorization next 
year, today's hearing provides a valuable opportunity to 
highlight institutional efforts to support veterans and 
servicemembers while also exploring potential policy changes 
that could strengthen the law. We have an excellent panel of 
witnesses with us today, and I look forward to their testimony.
    I now recognize my colleague, Mr. Ruben Hinojosa, the 
senior Democrat member of this subcommittee, for his opening 
remarks.
    [The statement of Chairwoman Foxx follows:]

         Prepared Statement of Hon. Virginia Foxx, Chairwoman,
        Subcommittee on Higher Education and Workforce Training

    Good afternoon, and thank you for joining us today for our hearing 
on higher education opportunities for veterans and servicemembers.
    Before we begin, I would like to take a moment to remember the 
thousands of American lives that were lost on this day in 2001, and for 
the Americans who lost their lives during the terror attack in Benghazi 
last year. We will never forget them. The men, women, and children who 
died will ever be in our thoughts, and we will continue to pray for 
peace for their families. I ask my colleagues to join me for a moment 
of silence.
    Thank you. As we pause to remember the past today, it is fitting 
that we also hold this hearing to explore how we can move forward by 
supporting the brave men and women who have served our country in the 
wake of 9/11. America's veterans face unique challenges as they return 
to civilian life. Some struggle with disabilities and combat stress 
injuries as a result of their service. Many others are older than 
traditional college students, work full time, or have a family to 
support.
    Beginning with the enactment of the GI bill in 1944, the federal 
government has implemented a number of programs and initiatives to 
support servicemembers and veterans who wish to earn a postsecondary 
degree or obtain valuable job skills. This commitment to our men and 
women in uniform continues to grow with the Post-9/11 GI Bill, which 
provides financial support to help cover the cost of tuition, fees, 
books, and housing at all types of colleges and universities.
    Since 2009, the Post-9/11 GI Bill has helped nearly one million 
veterans and their families access a postsecondary education. And as 
more troops return from Iraq and Afghanistan, postsecondary 
institutions now face the largest influx of student veterans on campus 
since World War II.
    The higher education community has a responsibility to tailor 
programs and coursework to ensure the needs of this unique student 
population are met and taxpayer resources are used wisely and 
efficiently. Fortunately, many schools are rising to the challenge.
    A growing number of postsecondary institutions now offer more 
flexible course schedules, the ability for veterans to earn credit for 
skills learned outside the classroom, and online coursework that can be 
completed on a student's own time. Other institutions, proprietary 
schools in particular, are working with the business community to craft 
targeted programs that help veterans learn the skills necessary to 
compete for in-demand jobs in their local economy.
    In my home state, the University of North Carolina's Partnership 
for National Security not only coordinates with state business leaders, 
but also works directly with military partners to develop a number of 
initiatives geared toward supporting our men and women in uniform, 
including special degree programs, pre-deployment education courses, 
and internships and fellowships.
    Additionally, the UNC SERVES program collects data to provide 
university leaders with a better understanding of the needs and 
outcomes of the active-duty and veteran student population. This 
information will help prospective students make more informed decisions 
about their postsecondary pathway, and it will also encourage 
institutions to establish special outreach efforts such as student 
groups, orientation events, and counseling offices that help veterans 
successfully transition into academic life.
    With the Higher Education Act due for reauthorization next year, 
today's hearing provides a valuable opportunity to highlight 
institutional efforts to support veterans and servicemembers, while 
also exploring potential policy changes that could strengthen the law. 
We have an excellent panel of witnesses with us today, and I look 
forward to their testimony. I would now like to recognize my colleague, 
Mr. Rubeen Hinojosa, the senior Democrat member of the subcommittee, 
for his opening remarks.
                                 ______
                                 
    Mr. Hinojosa. Thank you, Chairwoman Foxx.
    I view today's hearing as an opportunity to discuss how 
institutions and higher education systems are responding to the 
unique needs and services of our veterans. With this in mind, I 
welcome our distinguished group of panelists for joining us for 
this widely important discussion.
    As ranking member of this subcommittee, I am pleased that 
an increasing number of veterans are enrolling in college. In 
my view, Congress has a responsibility to support the more than 
2 million soldiers who are returning from the wars of Iraq and 
Afghanistan. Our nation must help them transition to civilian 
life.
    Unfortunately, some for-profit companies and lenders are 
preying on servicemembers and veterans to cash in on their G.I. 
benefits. Veterans are especially attractive to for-profit 
colleges because G.I. Bill benefits are not Title IV funds and, 
therefore, allow institutions almost entirely relying on Title 
IV funds to meet the 90/10 requirements--90-slash-10 
requirements.
    In fact, Holly Petraeus, of the Consumer Financial 
Protection Bureau, has accused certain for-profit colleges of 
viewing veterans as nothing more than dollar signs in uniform. 
In 2011 for-profit colleges collected 1 of every 2 dollars in 
the military assistance program. For-profit colleges enroll 13 
percent of all students receiving Title IV aid but account for 
almost half of all federal loan defaults.
    It is also worth noting that national veterans 
organizations, including the American Legion, are concerned 
that some for-profit colleges utilize federal education aid to 
pay for recruiting and for marketing. The American Legion has 
correctly pointed out that the core educational programs suffer 
when a disproportionate percentage of tuition is used towards 
marketing expenses.
    While my colleagues on the other side of the aisle may 
insist that federal regulations are burdensome and that they 
discourage innovation, I strongly believe that Congress must 
have federal regulations in place to protect veterans and 
servicemembers from unscrupulous companies and institutions and 
lenders. We owe veterans and servicemembers nothing less.
    And while I applaud President Obama for issuing an 
executive order establishing principles of excellence for 
educational institutions serving our servicemembers, veterans, 
spouses, and other family members, Congress and the 
administration, in my opinion, must do more to ensure that 
these principles are enforced and that servicemembers and 
veterans are well served by these federal benefits and 
programs.
    A critically important issue that some of our panelists 
will address today is the issue of credentialing of veteran 
experience. As you know, there are national organizations such 
as the American Council on Education, known as ACE, and state 
collaboratives that help institutions translate military 
experience into credit hours.
    With more than 2 million servicemembers returning from 
combat, colleges can do more to award credit hours for their 
past service experience. Improved articulation agreements can 
also help servicemembers transfer credits from community 
colleges to 2-year colleges with more ease.
    In closing, I want to recognize the veterans and 
servicemembers in my congressional districts--veterans like 
Harry Brunell, who served in World War II, who served in Korea, 
and he also served in Vietnam. I want to thank them for their 
courage and dedication to the nation.
    At this time I would like to enter into the record a copy 
of Hollister K. Petraeus' recent testimony before the U.S. 
Senate Committee on Veterans Affairs on July 31, 2013.
    [The information follows:]

    Prepared Statement of Hollister K. Petraeus, Assistant Director,
  Consumer Financial Protection Bureau Office of Servicemember Affairs

  Before the U.S. Senate Committee on Veterans' Affairs, July 31, 2013

    Chairman Sanders, Ranking Member Burr, and distinguished Members of 
the Committee, thank you for the opportunity to speak with you today 
about the Office of Servicemember Affairs at the Consumer Financial 
Protection Bureau (Bureau).
    Many of you already know me as I've testified before you on other 
committees, and I've also had the opportunity to visit with some of you 
in your home states. But for those of you who are not familiar with my 
office, I'd like to take a few moments to tell you what we do.
    As defined in the Dodd-Frank Act, the Office of Servicemember 
Affairs at the Bureau is responsible for:
    <bullet> Developing and implementing initiatives to educate and 
empower servicemembers and their families to make better-informed 
decisions regarding consumer financial products and services;
    <bullet> Monitoring military complaints about consumer financial 
products and services, including the Bureau and other federal or state 
agency responses to those complaints; and
    <bullet> Coordinating the efforts of Federal and State agencies 
regarding consumer protection measures relating to consumer financial 
products and services offered to, or used by, servicemembers and their 
families.
    Concerning our education mission, in an effort that I think would 
be of interest to this committee, my team worked with the Department of 
Defense (DoD) to create a financial module to be included in the 
recently revised Transition Assistance Program for those departing the 
military.
    And, in a logical follow-on, this year we're working on an 
initiative to offer financial coaching services to recently-
transitioned veterans, to ensure they have some professional financial-
planning support during the economically vulnerable time after they 
leave the service.
    As for our complaint monitoring, from July 21, 2011 through July 6, 
2013, the Bureau received approximately 4,516 complaints from veterans 
and their family members. The complaint volume from veterans has 
steadily increased over time, with 262 complaints received in 2011, 
2,315 in 2012, and 1,939 complaints in the first six months of 2013. 
About 49 percent of the complaints from veterans have been mortgage 
complaints, followed by 18 percent credit card complaints, and 13 
percent bank account or service complaints. We only started accepting 
complaints about credit-reporting companies in October 2012, but credit 
reporting is already the 4th highest complaint category for veterans at 
8 percent, and is trending upward.
    We have helped veterans who filed complaints secure hundreds of 
thousands of dollars in monetary relief. We've also assisted many 
others to obtain non-monetary relief, for example having errors on a 
credit report corrected, which helps them resolve problems that may 
have been affecting them for months or even years.
    But these complaint statistics aren't just numbers to us: they 
represent military and veteran families and we know the impact consumer 
financial issues can have on their quality of life. In one complaint, a 
veteran from North Carolina was struggling with his bank for months 
over a fee of nearly 2,000 that should have been waived because he was 
disabled. Within weeks of his filing a complaint with the Bureau, the 
bank removed the fee and refunded the veteran for the interest that was 
charged in error. Although we can't promise specific results, I 
encourage servicemembers, veterans, retirees, and military spouses to 
go to consumerfinance.gov and file a complaint if they are having 
problems with a mortgage, credit card, student loan, or other consumer 
financial product. And I think it's fair to say that our Consumer 
Response team is making a real difference for many veterans and their 
families.
    As to my office's third mission--coordinating with other federal 
and state agencies--I have spent a significant amount of time doing 
just that. Our Office of Servicemember Affairs has worked with federal 
agencies such as the Department of the Treasury and the Federal Housing 
Finance Agency on mortgage issues, with the Department of Justice (DOJ) 
on Servicemembers Civil Relief Act issues, and with the Department of 
Veterans Affairs (VA) concerning veterans' issues. And obviously, my 
staff and I talk all the time with DoD.
    In the states, I've had great support from the Attorneys General, 
with 16 of them personally joining me at events in military 
communities. In fact, on July 1st I was at MacDill Air Force Base in 
Florida at the invitation of Attorney General Pam Bondi to watch 
Governor Scott sign a bill to provide enhanced penalties for those who 
use deceptive or unfair trade practices in their dealings with 
servicemembers, veterans, and their families.
    I've also had a very good relationship with the state directors of 
Veterans Affairs, meeting with almost a dozen of them in their home 
states as well as addressing their national conference in May. And I 
work with the veterans' service organizations (VSOs), as well. I've 
done presentations to the Iraq and Afghanistan Veterans of America, the 
Vietnam Veterans of America, and the American Legion. We have also had 
a couple of town halls specifically for VSOs and intend to do more.
    Speaking of town halls, I participated in a telephone town hall 
last year with Senator Manchin and Senator Rockefeller that reached 
thousands of veterans in the state of West Virginia, and I am eager to 
engage with veterans through initiatives such as these whenever I have 
the opportunity to do so. I should add that I have just added a 
veterans' outreach specialist to my staff so we can do more work on 
consumer protections and financial education for veterans.
    Now, let me talk specifically about the issues that have come up 
during my travels to 28 states and about 60 military communities, where 
I have heard directly in the past two years from servicemembers, 
veterans, military retirees, and their families.
    One issue that has been raised consistently throughout my travels 
is concern over aggressive marketing to military personnel, veterans, 
and their families by certain institutions of higher education seeking 
to attract individuals with access to GI Bill benefits. These 
institutions are pushing not only their educational programs, but also, 
in many cases, expensive private student loans to pay for the amount of 
tuition and fees not covered by the GI Bill.
    There is an extra incentive for for-profit colleges, in particular, 
to chase after military students because of the 90-10 proprietary 
college federal funding cap--a requirement that for-profit colleges get 
at least 10 percent of their revenue from sources other than Title IV 
federal education funds administered by the Department of Education 
(ED). Military GI Bill and Tuition Assistance benefits are not Title IV 
funds, so they fall into the 10 percent category that these colleges 
need to fill--and we have heard of some very aggressive tactics to put 
GI Bill recipients into classes.
    For example, a year ago when I was out in Nevada with Attorney 
General Catherine Cortez Masto, I spoke with a woman from the VA 
Regional Office there who was overseeing vocational rehabilitation for 
veterans. She told me that she had patients with traumatic brain injury 
(TBI) and post-traumatic stress disorder (PTSD) who had been persuaded 
to sign up for college classes, and didn't even remember doing so. That 
didn't stop the colleges from pressing them for full payment, even 
though they were not regularly attending classes. She said that some 
schools were also pushing her patients to enroll in master's degree 
programs even though she believed they were not capable of doing the 
work at that time. Their tactics were aggressive enough that she 
described it as ``tormenting veterans.'' Obviously it distressed her to 
see her patients pressed to spend their GI Bill benefits in this 
manner.
    On the same topic, in April 2012 I went to Fort Stewart, Georgia to 
watch the President sign an Executive Order 13607, ``Establishing 
Principles of Excellence for Educational Institutions Serving Service 
Members, Veterans, Spouses, and Other Family Members.'' The order 
directed the Departments of Defense, Veterans Affairs, and Education, 
in consultation with the Bureau and the attorney general, to take steps 
to enable servicemembers, veterans and their families to get the 
information they need about the schools where they spend their 
education benefits. The order also strengthened oversight and 
accountability within the federal military and veterans' educational 
benefits programs.
    I am pleased to report that there has been real progress since 
then, with DoD, ED, VA, DOJ, the Federal Trade Commission, and the 
Bureau working together to better protect and inform servicemembers, 
veterans, and military families about their education benefits. For 
example:
    <bullet> The term ``GI Bill'' has now been trademarked by the VA;
    <bullet> DoD has updated their rules to protect against aggressive 
commercial solicitation on military installations by educational 
institutions; and
    <bullet> ED has finalized the ``Know Before You Owe Financial Aid 
Shopping Sheet,'' enabling veterans to make better-informed decisions 
about paying for college and choosing a school.
    The state attorneys general have been active, too, filing suit 
against certain colleges for deceptive marketing and aggressive 
recruiting tactics. And 19 of them joined Kentucky Attorney General 
Jack Conway in filing suit against a company called Quin Street that 
had a number of lead-generation websites marketing to GI Bill 
recipients. In addition to paying a monetary settlement and changing 
misleading content on their sites, Quin Street agreed as part of the 
settlement to give the URL www.gibill.com to the VA.
    Certainly there is more work to be done, but I believe these and 
subsequent steps will help protect against some of the most egregious 
abuses we've seen in the past. That said, we intend to keep working 
with groups from the above agencies to see that the order is 
implemented in a way that best serves our military and veterans.
    Another area of concern that has arisen fairly frequently, both on 
my trips and via our complaint system, is that of financial 
institutions failing to provide Servicemembers Civil Relief Act (SCRA) 
protections to those who qualify for them. DOJ has explicit enforcement 
authority under SCRA, so we coordinate frequently with the DOJ Civil 
Rights Division and DoD concerning the SCRA-related components of the 
military complaints that we receive. In fact, my first testimony before 
Congress in this job was in February 2011 before the House Committee on 
Veterans' Affairs and the subject of the hearing was the failure of the 
largest banks to provide SCRA entitlements to their military 
customers--both the interest-rate reduction to six percent and 
foreclosure protection. I also had the opportunity to take part in a 
panel hosted by Senator Rockefeller and Congressman Elijah Cummings 
discussing the impact on military readiness when SCRA protections are 
violated.
    Since then the state AGs, the Department of Housing and Urban 
Development (HUD) and DOJ have aggressively pursued this issue, 
resulting in a national mortgage settlement with the five largest 
mortgage lenders that was in part spurred by the lenders' failure to 
comply with the provisions of the SCRA. While I commend the settlement 
and their continued vigilance, we do continue to see compliance 
concerns in the complaints that military/veteran consumers file with 
the Bureau.
    SCRA compliance problems are not limited to mortgage servicing; 
we've now identified other markets with similar problems. Most notably, 
in the student-loan servicing market, we've heard of lenders giving out 
incorrect or misleading information or even refusing to grant SCRA 
protections. Some examples:
    <bullet> Servicemembers being told (incorrectly) that they must 
provide a letter from their commanding officer or ``certified'' orders 
in order to receive the interest-rate reduction to six percent;
    <bullet> Officers being told to provide orders with an end date in 
order to receive the interest-rate reduction (officers' orders usually 
don't have end dates--they are indefinite);
    <bullet> The lender terminating the interest-rate reduction at the 
end of one year because the servicemember does not provide proof of 
continuing active-duty service (proof that is not required under the 
SCRA);
    <bullet> The lender placing the servicemember in forbearance 
automatically when SCRA rights are invoked, rather than simply 
providing the requested interest-rate reduction; and
    <bullet> The lender failing to comply with a servicemember's 
request that the lender refund all the interest charged above 6 percent 
from the point of entry into active-duty military service. As long as 
the servicemember requests this SCRA protection within 180 days of 
leaving active duty, the lender must comply and issue a refund, no 
matter how long has passed since the servicemember entered active duty, 
even if it's been months or years.
    We put out a report on this topic with the Bureau's student loan 
ombudsman, along with an action guide for servicemembers. In the report 
we also raised concerns about an issue that arises when servicemembers 
attempt to replace older, pre-service student loans with a new direct 
consolidation loan (to take advantage of federal student loan repayment 
options such as Income-Based Repayment or Public Service Loan 
Forgiveness). Unfortunately, the law as currently written does not 
convey the ``pre-service obligation'' status of the old loans to the 
new direct loan, which has the unfortunate result of forcing some 
servicemembers to choose between the SCRA protection of a lower 
interest rate on their old loans or the prospect of income-based 
repayment and eventual loan forgiveness with a consolidated Direct 
Loan.
    And although it is not an SCRA issue, while we're on the topic of 
student loans I wanted to raise a concern about veterans with private 
student loan debt who have been very severely injured during combat or 
at any time during their military service. It's a sad fact that some 
veterans with the most severe disabilities will never be capable of 
obtaining or performing a job that will enable them to repay that 
private student loan debt. However, as the law now stands, it is very 
difficult for them to discharge those debts despite the reality of 
their medical condition. It seems a shame that federal student loans 
have such a provision for those with 100 percent disability, but there 
is currently no such relief for those who have private student loans.
    Another issue that I have heard about frequently on my trips 
throughout the U.S. concerns abuses connected with the veterans' 
benefit known as Aid and Attendance, which I know this group is 
familiar with. I have heard from a number of State Veterans Affairs 
directors, starting with my trip to Montana at the invitation of 
Senator Tester in January 2012, that they are concerned about the 
increasing number of individuals and companies that use Aid and 
Attendance as a hook to sell their services to elderly veterans. I'd 
like to note a recent settlement by the Attorney General of Washington 
with three financial planning companies that were doing just that. 
These companies were offering help with obtaining Aid and Attendance 
but were requiring their customers to sign up for financial services 
first,--and then moving the veterans' assets into irrevocable trusts 
but not fully informing the veterans of the risks of doing so.
    Aid and Attendance offers can take a variety of forms:
    <bullet> It may be an offer from a lawyer or ``veterans' advisor'' 
to get the Aid and Attendance benefit for you--for a fee. In reality 
claims processing should be free, but in some cases veterans are being 
charged a ``consultation fee'' before the claim paperwork is begun.
    <bullet> It may be a claim from a paid advisor that they can get 
the benefit for you more quickly than anyone else. But all VA benefits 
claims have to go through the standard VA evaluation process, and no 
one can bypass the system to get your claim approved faster than usual.
    <bullet> It may involve offering to help you qualify for Aid and 
Attendance, if you have too much money, by taking control of your 
assets and moving them into a trust where you can't access them, as in 
the case in Washington State. This, in turn, may disqualify you for 
other assistance such as Medicaid, and it also means that you can't get 
at your money. In one outrageous example I was told about an advisor 
who locked one veteran's money into an annuity that wouldn't start 
paying out until he was well into his nineties!
    <bullet> Also, some retirement homes are now using the lure of Aid 
and Attendance to get veterans to move in on the premise that they will 
get Aid and Attendance and it will pay for everything. In cases where 
the claim is denied after the veteran has already spent money to move 
in, this leaves the veteran in the untenable position of being unable 
to afford to remain in the facility.
    We have also seen a flood of advertising in the past year urging 
those with VA home loans to refinance their homes. Veterans on my staff 
and elsewhere at the Bureau have received a torrent of these offers in 
the mail. We were concerned enough that the Bureau and the FTC did a 
joint sweep of the mortgage ads which resulted in letters to a number 
of lenders concerning potential violations of the Mortgage Acts and 
Practices--Advertising (MAP) Rule, with the potential for future 
enforcement actions by the Bureau and FTC.
    On a related note, I commend the FTC for its first enforcement 
action under the MAP Rule, announced June 27th, in which Mortgage 
Investors Corporation, a large refinancer of veterans' home loans, must 
pay a $7.5 million penalty for allegedly calling consumers on the 
Federal Trade Commission's National Do Not Call list, failing to remove 
consumers from its company call list upon demand, and misstating the 
terms of available loan products during telemarketing calls.
    One last area of concern is pension advances--offers to pay 
military retirees a lump-sum payout in return for their monthly 
retirement payments. These offers usually amount to pennies on the 
dollar, and may be in violation of the law regarding assignment of 
pension benefits, even though they are disguised as loans. If you go on 
the internet you will find them--often with patriotic-sounding names 
and the American flags on the website to match, but with a high cost 
for the retiree who takes them up on the offer.
    The Bureau has an Office of Financial Protection for Older 
Americans and my office is working with them on these issues. They have 
recently reported to Congress on the wide array of ``elder financial 
advisor'' designations that are in use and spotlighted the fact that 
many of them are not based on any sort of academic rigor or significant 
training--but may sound official to elderly consumers.
    To conclude, the Office of Servicemember Affairs is working hard to 
fulfill its mission to work on consumer financial education and 
consumer-protection measures for military personnel and their families, 
and we certainly want to include retirees and veterans in that number. 
We will press on to work with you and the states on existing problems 
and also address new issues as they arise. Our veterans and their 
families have done extraordinary service for our country, and, in 
return, it's an honor for me and my staff to serve them through our 
work at the Office of Servicemember Affairs.
    Thank you for the opportunity to testify before the Committee.
                                 ______
                                 
    Chairwoman Foxx. Without objection.
    Mr. Hinojosa. And I thank you. I yield back.
    [The statement of Mr. Hinojosa follows:]

      Prepared Statement of Hon. Rubeen Hinojosa, Ranking Member,
        Subcommittee on Higher Education and Workforce Training

    Thank you, Chairwoman Foxx.
    As we commemorate September 11th, I join my colleagues in the House 
and Senate in honoring and remembering the lives of the victims and 
families of this terrible tragedy. Although it has been twelve years 
since the events of 9/11, our nation must never forget the men, women, 
and children who lost their lives on that day.
    Chairwoman Foxx, I view today's hearing as an opportunity to 
discuss how institutions and higher education systems are responding to 
the unique needs and services of veterans. With this in mind, I welcome 
our distinguished group of panelists for joining us for this vitally 
important discussion.
    As Ranking Member of this subcommittee, I am pleased that an 
increasing number of veterans are enrolling in college. In my view, 
Congress has a responsibility to support the more than two million 
soldiers who are returning from the wars of Iraq and Afghanistan. Our 
nation must help them transition to civilian life.
    Unfortunately, some for-profit companies and lenders are preying on 
service members and veterans to cash in on their GI benefits. Veterans 
are especially attractive to for-profit colleges because GI Bill 
benefits are not Title IV funds, and, therefore, not affected by the 
90/10 rule. In fact, Holly Petraeus of the Consumer Financial 
Protection Bureau (CFPB) has accused certain for-profit colleges of 
viewing veterans as nothing more than ``dollar signs in uniform.'' In 
2011, for-profit colleges collected one of every two dollars in the 
Military Assistance program.
    For-profit colleges enroll 13 percent of all students receiving 
Title IV aid but account for almost half of all federal loan defaults. 
It is also worth noting that national veteran organizations, including 
the American Legion, are concerned that some for-profit colleges 
utilize federal education aid to pay for recruiting and marketing. The 
American Legion has correctly pointed out that core educational 
programs suffer when a disproportionate percentage of tuition is used 
toward marketing expenses.
    While my colleagues on the other side of the aisle may insist that 
federal regulations are burdensome and discourage innovation, I 
strongly believe that Congress must have federal regulations in place 
to protect veterans and service members from unscrupulous companies, 
institutions, and lenders. We owe veterans and service members nothing 
less.
    And while I applaud President Obama for issuing an executive order 
establishing principles of excellence for educational institutions 
serving service members, Veterans, Spouses, and other family members, 
Congress and the Administration must do more to ensure that these 
principles are enforced and that service members and veterans are well-
served by these federal benefits and programs.
    A critically important issue that some of our panelists will 
address today is the issue of credentialing of veteran experience. As 
you know, there are national organizations such as the American Council 
on Education (ACE) and collaboratives that help institutions translate 
military experience into credit. With more than two million service 
members returning from combat, colleges can do more to award credit 
hours for their past service experience.
    Improved articulation agreements can also help service members 
transfer credits from community colleges to two year colleges with more 
ease.
    In closing, I want to recognize the veterans and service members in 
my congressional district--veterans like Harry Brunelle who served in 
WWII, Korea and Vietnam--for their courage and dedication to the 
nation.
    At this time, I would like to enter into the record a copy of 
Hollister K. Petraeus's testimony before the U.S. Senate Committee on 
Veterans' Affairs on July 31, 2013.Thank you.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Mr. Hinojosa.
    Pursuant to committee rule 7(c), all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record, and without objection the 
hearing record will remain open for 14 days to allow 
statements, questions for the records, and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses.
    Mrs. Kimrey Rhinehardt is the vice president for federal 
and military affairs at the University of North Carolina, where 
she serves as the primary liaison between the university and 
the university's 17 campuses and the federal government. Dr. 
Arthur Kirk is the president of Saint Leo University in Saint 
Leo, Florida, where he has served since he was appointed to the 
position in 1997.
    Dr. Russell Kitchner serves as vice president for 
regulatory and governmental relations for the American Public 
University System. Dr. Ken Sauer has been with the Indiana 
Commission for Higher Education since 1985, currently holds the 
position of senior associate commissioner for research and 
academic affairs.
    Before I recognize you to provide your testimony 
individually, let me briefly explain our lighting system.
    You will have 5 minutes to present your testimony. When you 
begin, the light in front of you will turn green; when 1 minute 
is left, the light will turn yellow; when your time is expired, 
the light will turn red. At that point I ask that you wrap up 
your remarks as best as you are able.
    After you have testified, members will each have 5 minutes 
to ask questions of the panel.
    I now recognize Mrs. Kimrey Rhinehardt for 5 minutes.
    And, Kimrey, wait one second--and Kimrey has her daughter, 
Tyler, with her today, and she is getting a lesson in good 
representative government. And we are glad to have Tyler with 
us here today.
    Kimrey?

 STATEMENT OF KIMREY W. RHINEHARDT, VICE PRESIDENT FOR FEDERAL 
       MILITARY AFFAIRS, THE UNIVERSITY OF NORTH CAROLINA

    Mrs. Rhinehardt. Madam Chair, thank you. You know well that 
North Carolina is a proud state. We are proud that 
Revolutionary War patriots fought for and established the 
University of North Carolina, the nation's first public 
university.
    Today the University of North Carolina is a multi-campus 
university. We have 220,000 students, 55,000 faculty and staff, 
and our budget is approximately $9 billion.
    North Carolina is also proud of our military family, and it 
is a very large military family: 11 percent of North 
Carolinians are in some way directly connected to the military. 
My father proudly served as a citizen soldier for 29 years. My 
sister, two uncles, an aunt, my grandparents--including my 
grandmother--all served this nation in uniform.
    Our state's military family includes those who have served, 
are serving, and will serve in the future.
    This culture of prideful acceptance and support of the 
military is a North Carolina core value. After the Post-9/11 
G.I. Bill became law in 2008, UNC institutions experienced a 
surge in applications from military students. The surge 
continues.
    In 2010, Congress again changed the Post-9/11 G.I. Bill. In 
parallel, the Department of Defense asked institutions 
participating in a tuition assistance program to sign new MOUs 
in 2011 and then again in 2012. We are working on our third MOU 
as we speak.
    Concurrent to these changes, President Obama issued an 
executive order establishing principles of excellence. Shortly 
thereafter, the V.A. asked institutions of higher education to 
commit to certain principles of excellence consistent with the 
president's executive order.
    To be clear, we agree with the spirit of and the intent 
behind these requirements. But honestly, we are ahead of the 
curve.
    In October 2010, a UNC system working group of faculty, 
staff, and students was appointed to take a closer look at how 
well we serve these students. The working group known as UNC 
SERVES, as Dr. Foxx referenced, established the baseline for 
where we were and where we wanted to go.
    President Ross and the 16 chancellors are implementing UNC 
SERVES. The university's governing board is equally engaged. 
They established a special committee to focus on military 
affairs and approved a military student success policy that 
applies system-wide.
    Under this new policy, the university considers a student 
having completed at least 2 years of active duty service a 
transfer student. We are also collecting better data so that we 
may identify and track the academic progress of these 
students--specifically their retention and graduation rates and 
length of time to degree.
    Veterans are not your typical students. They come to us 
from a highly structured bureaucratic environment and become 
frustrated with the loosely structured bureaucratic environment 
of the university.
    One of our top priorities is to centralize information-
sharing by using technology. The university system has a 
website that serves as the virtual front door for all military.
    Another resource and development is the North Carolina 
Military Educational Positioning System. This website, a 
partnership with the Aurora Foundation, is designed to help 
veterans explore their educational options, navigate to their 
college of choice, and then graduate and transition into the 
workforce.
    For active duty servicemembers, the university has academic 
advisors at Fort Bragg, Camp Lejeune. We work with the 
community colleges to create specialized programs just for this 
service--just for the servicemember.
    At President Ross' direction, I lead and manage the system-
wide UNC Partnership for National Security, an initiative that 
coordinates all of our efforts with the military across the 
system. The one-stop shop approach works very well.
    At UNC we care deeply about the whole soldier. We care 
about providing them with access to a high quality, affordable 
education. We care about the families that they leave behind 
when they deploy. We care about the equipment that they carry 
down range.
    We care about providing them with a sharp civilian 
workforce to support their mission. And when they decide to 
retire or separate from service, we care about getting them a 
good paying job in North Carolina.
    We commit ourselves to the UNC Partnership for National 
Security because of that deeply embedded prideful acceptance 
and support that I referenced earlier. A servicemember's 
education is critical because the most important weapon that 
they have is their mind.
    The equipment they need must be the most advanced 
technology imaginable because they need to execute their 
mission and return home safely. And when the servicemember 
makes the transition to veteran in the civilian world, we want 
that veteran to remain in North Carolina for the long term.
    Finally, the University of North Carolina system commits 
itself to partnering with the military because national 
security should be a priority for us all, not just for the less 
than half of one percent of us that serve in the armed forces. 
We can all do something to contribute.
    The faculty, staff, and students of the University of North 
Carolina stand ready to do our part, Madam Chair. Thank you, 
and this concludes my testimony.

    [The statement of Mrs. Rhinehardt follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
                                ------                                

    Chairwoman Foxx. Thank you very much.
    I now recognize Dr. Arthur Kirk for 5 minutes.

        STATEMENT OF DR. ARTHUR F. KIRK, JR., PRESIDENT,
                      SAINT LEO UNIVERSITY

    Mr. Kirk. Chairwoman Foxx, Ranking Member Hinojosa, members 
of the subcommittee, I appreciate the opportunity to discuss 
programs that assist our nation's servicemembers and veterans 
in obtaining a higher education. I am Art Kirk, president of 
Saint Leo University.
    Saint Leo University, a Catholic university founded in 
1889, offers over 40 undergraduate and graduate programs on a 
residential campus in Florida; on 16 military bases in Florida, 
Virginia, South Carolina, Mississippi, Texas, California, and 
Georgia; to students everywhere online; on community college 
campuses; and at other locations near bases.
    G.I. Jobs and Military Advanced Education rank us among the 
most military-friendly institutions. But we understand that we 
must be more than just military-friendly. We must be military 
and veteran supportive.
    We are celebrating 40 years of serving military students. 
The university began offering degree programs on bases at the 
height of the Vietnam War, becoming the first college in the 
nation to grant the bachelor's degree on an Air Force base, 
when members of the military found it very difficult to 
complete their education while on active duty. We adopted 
online offerings for the military in 1997. We partner with 
GoArmyEd, eArmyU, Navy College Distance Learning, Air Force 
Academic Institution Portal, Air University, the Marine Corps 
Lifelong Learning Program, Servicemembers' Opportunity 
Colleges, and more.
    Saint Leo offers credit for prior learning, military 
training, and Air Force and ROTC opportunities. Today, seven 
Saint Leo ROTC candidates are in the Army Green to Gold program 
for veteran non-commission officers. Last year we enrolled 
5,697 veterans, 79 percent of whom were post-9/11 vets, while 
educating 4,886 active duty military, representing 39 percent 
of our student body.
    The university provides our military students outstanding 
academics and personal attention in small classes. These 
qualities characterize the National Association of Independent 
Colleges and Universities, which I also represent today.
    With more than 1,000 members, NAICU reflects the diversity 
of private, not-for-profit higher education in the U.S. Over 
half of our colleges educate fewer than 5,000 students; a 
quarter enroll fewer than 2,000. Many veterans choose to attend 
these smaller institutions.
    To support our military and veterans mission, the Saint Leo 
Office of Veteran Student Services opened in 2011 to work with 
all university departments and community organizations to meet 
the needs of our veterans. Dr. Jose Coll, who came to the U.S. 
as a boy when his parents fled Cuba, leads the office.
    The first American Coll encountered was a Marine. Coll 
later served with the 1st Force Reconnaissance Company Marines. 
Regarding Saint Leo's support of vets, he noted, ``It takes the 
entire university to do what we do so well.''
    Our efforts to create a proactive veteran-supportive 
environment include extensive training programs. Our 52 veteran 
certifying officials, our academic advisors, faculty, and staff 
receive training in identifying and addressing issues that 
veterans may face, including post-traumatic stress. We take 
staff through scenarios so they know where to refer students 
for the needed support on and off campus.
    We also offer training to public schools and law 
enforcement agencies as well as to our students and faculty in 
those majors. We believe social support is critical and 
continue to identify ways for veterans to connect on our campus 
and education centers.
    Employee veterans play a critical role, mentoring Saint Leo 
student veterans. We educate the university community about 
military culture and build an inclusive community that benefits 
our entire student body.
    All our military and veteran students receive a roadmap to 
graduation. We determine what credits the student brings to 
college and develop a clear sequence of courses towards the 
degree of their choosing. Their plan is updated each term.
    Saint Leo maintains a retention alert system so that 
advisors can intervene when a student misses classes or 
receives failing midterm grades. Veterans and servicemembers 
attending Saint Leo receive critical financial support, 
including the financial aid programs under the jurisdiction of 
this committee and programs supported by the Departments of 
Defense and Veterans Affairs. We are grateful for the 
commitment and support the federal government provides for 
those who serve the nation.
    Saint Leo works to do our share by participating in the 
Yellow Ribbon program and raising money for private 
scholarships. Saint Leo also initiated a two-step certification 
process for V.A. benefits that makes the process much quicker 
and more manageable for the veteran but adds work for us.
    All this support results in success. Saint Leo awarded 
1,485 associate, bachelor's, and graduate degrees to just 
veterans last year--more than double two years ago.
    On our campus stands a 30-foot bronze sculpture of a 
soldier, sailor, airman, Marine, and guardsman upholding Lady 
Liberty--a tribute to all of our military and veteran students 
and graduates and a daily reminder that their service allows us 
the freedom to live, learn, and teach in peace and security. We 
take great pride in serving those who serve.
    [The statement of Mr. Kirk follows:]

    Prepared Statement of Arthur F. Kirk, Jr. President, Saint Leo 
                               University

    Chairwoman Foxx, Ranking Member Hinojosa, and members of the 
Subcommittee, I appreciate having the opportunity to appear today to 
discuss programs that assist our nation's servicemembers and veterans 
in obtaining a higher education. I am Art Kirk, president of Saint Leo 
University.
    Saint Leo University is an independent Catholic university founded 
in 1889. The University offers over 40 undergraduate and graduate 
degree programs on its residential campus in Florida, and to adult 
students on 16 military bases in Florida, Virginia, South Carolina, 
Mississippi, Texas, California, and Georgia; to students in all states 
and overseas through our center for online learning; on 15 Florida 
community college campuses; and at several other locations near 
military bases.
    Saint Leo is ranked among the nation's most military-friendly 
institutions by G.I. Jobs and Military Advanced Education magazines. It 
is one of only 10 institutions nationwide to be approved by the U.S. 
Coast Guard for participation in its new Maritime Law Enforcement 
College Partnership Program. But we understand that we must be more 
than just military and veteran friendly, we must be military and 
veteran supportive.
    We are currently in a year-long celebration of 40 years of serving 
those who serve. The University began offering full degree programs on 
military bases in 1973, and became the first college or university in 
the nation to grant the bachelor's degree on an Air Force base. We 
started with 176 students at the Avon Park Bombing Range and 13 at 
MacDill Air Force Base.
    This was at the height of the Vietnam War. At the time, many 
members of the armed forces found it difficult to complete their 
education while on active duty. Some were stationed in conflict zones. 
Some served at military installations in isolated areas. Many performed 
shift work and could not attend regular daytime classes. Often 
servicemembers were transferred before they could complete their degree 
programs. My University's mission, to provide opportunities for people 
of good character regardless of their religion, compelled us to respond 
to these needs.
    We were an early adopter, in 1997, of online offerings for the 
military. In efforts designed to fit the mobile lifestyle of military 
personnel worldwide, we partner with:
    <bullet> GoArmyEd
    <bullet> eArmyU
    <bullet> Navy College Program Distance Learning Partnership (CPDLP)
    <bullet> The Air Force Academic Institution (AI) Portal
    <bullet> Air University Associate to Baccalaureate Cooperative 
Program
    <bullet> The Marine Corps Lifelong Learning Program's Academic 
Explorer (AeX)
    <bullet> Servicemembers' Opportunity Colleges program and its 
Degree Networking System
    Saint Leo also offers our students credit for prior learning 
experiences and maintains a partnership with University of South 
Florida that allows University Campus students to participate in Air 
Force and Army ROTC programs at USF. ROTC provides the tools, training 
and experiences for students to become officers in the United State 
military, while earning money toward their college education. This year 
seven Saint Leo ROTC candidates are from the Army Green to Gold program 
for veteran non-commission officers who can choose any ROTC program to 
complete their BA degree and receive their commission.
    Saint Leo University enrolled 5,697 veterans during the past 
academic year, 4,477 (78.5%) of whom were Chapter 33 or Post-9/11 
veterans. The University also educated 4,886 active duty military and 
reservists during the course of the last academic year. All told, this 
equals nearly 39% of the students who took at least one course with us 
during the year.
    The University is proud of its military students and is committed 
to providing them with outstanding academic programs and personal 
attention in small classes. I might add that these are qualities that 
characterize the member institutions of the National Association of 
Independent Colleges and Universities, which I am also representing 
today. With more than 1,000 members nationwide, NAICU reflects the 
diversity of private, non-profit higher education in the United States. 
Over half of our nation's private, non-profit colleges have fewer than 
5,000 students, and a quarter have fewer than 2,000. Many veterans 
choose to attend these smaller institutions.
    To further support our military and veterans mission, the Saint Leo 
University Office of Veteran Student Services opened in 2011. The 
Office works collaboratively with all university departments and 
community organizations to best meet the needs of our student veterans 
in order to ensure them every opportunity to accomplish individual 
goals.
    This office is headed up by Jose Coll, who came to the United 
States as a young boy when his parents fled Cuba. The first American 
Coll encountered in Key West was a Marine, a meeting that triggered his 
own desire to join the Marine Corps. Coll served with the 1st Force 
Reconnaissance Company at Camp Pendleton where he supervised combat 
parachuting operations and training. Due to the positive experience and 
mentorship he received at Saint Leo, Coll decided to enter academia. 
Commenting on the role that all departments at Saint Leo University 
have played in supporting veteran education, Coll noted ``It takes the 
entire university to do what we do so well.''
    Our efforts to create a proactive ``veteran-supportive 
environment'' at Saint Leo include relevant training for faculty, 
staff, and students. In particular, our 52 veteran certifying officials 
(VCOs) (up from 20 a few years ago), academic advisors, many faculty 
and staff receive extensive training in identifying and addressing 
issues that veterans are likely to face in pursuing their education. 
These training programs take them through a series of ``what-if'' 
scenarios to assure that our staff know where students can be referred 
to to receive the support they need--both on- and off-campus. Our 
faculty and staff are also trained to identify signs of post-traumatic 
stress and how to respond to it on the spot.
    This training is conducted by our Office of Veteran Student 
Services, which also offers training in nearby public schools and to 
our education majors and faculty in dealing with the particular issues 
faced by children of veterans. Likewise, the office conducts training 
sessions with law enforcement agencies and criminal justice students 
and faculty regarding issues they may encounter with veterans in their 
communities.
    We believe that social support is also critical and continue to 
look for new ways for veteran students to connect on campus and at our 
education centers. We recognize the critical role that faculty and 
staff veterans can play in mentoring veteran students and have 
encouraged these interactions. We also look for ways to educate the 
Saint Leo University community about military culture and veterans' 
issues. The sense of community that these efforts build on campus 
benefits our entire student body--veterans and non-veterans alike.
    There are a number of things we're doing that offer important 
academic support. For example, we provide all our military and veterans 
students with what I think of as a ``road map to graduation.'' 
Essentially, at the outset, we determine what credits the student is 
already bringing to college and then develop a clear sequence of 
courses towards the degree of their choosing.
    This plan is updated each term so that the student clearly 
understands what is needed to graduate.
    Saint Leo also has a retention alert system so that advisors can 
take a closer look when a student misses classes or receives failing 
grades and see that appropriate remediation is provided.
    This is by no means a one-way street. Our veteran students, who now 
comprise just under 5% of our campus residential students, have had a 
tremendously positive influence on campus.
    In addition, veterans and servicemembers attending Saint Leo 
receive critical financial support from a variety of sources--including 
the financial aid programs under the jurisdiction of this committee as 
well as programs supported by the Departments of Defense and Veterans 
Affairs (VA). Those of us involved with military and veterans' 
education are grateful for the commitment and support the federal 
government has provided in offering opportunities for those who serve 
our nation.
    We work to do our share as well, through participation in the 
Yellow Ribbon program and support for private scholarships. At Saint 
Leo, we have also initiated a two-step certification process for VA 
benefits that has made the process much quicker and more manageable for 
the veteran. It does involve extra work on the part of our staff, but 
the improved help to veterans is well worth the investment.
    All of this support results in success. The University awarded 311 
associate degrees, 884 bachelors, and 290 graduate degrees to veterans 
last year (1,485 total: more than double than two years ago). Our 
veterans maintained a grade point average of 3.31 in their 
undergraduate studies.
    At the center of our campus, stands a 30 foot bronze sculpture by 
artist Dexter Benedict of a soldier, sailor, airman, marine and 
guardsmen upholding lady liberty as a tribute to all of our military 
and veteran students and graduates and a daily reminder to all of us on 
campus that their service allow us the freedom to live, learn and teach 
in peace and security. We take great pride in serving those who serve.
                                 ______
                                 
    Chairwoman Foxx. Thank you very much.
    I now recognize Dr. Kitchner for 5 minutes.

   STATEMENT OF DR. RUSSELL S. KITCHNER, VICE PRESIDENT FOR 
    REGULATORY AND GOVERNMENTAL RELATIONS, AMERICAN PUBLIC 
                       UNIVERSITY SYSTEM

    Mr. Kitchner. Chairwoman Foxx, Ranking Member Hinojosa, 
members of the committee and staff, I have the privilege of 
joining you today and representing American Public University 
System, which consists of American Military University and 
American Public University. Originally chartered as American 
Military University in 1991, its history and legacy reflect one 
of the unique strengths of our nation's approach to higher 
education: the ability of one person's vision to be transformed 
into a distinguished center for teaching and learning.
    Marine Corps Major James Etter had experienced the 
frustrations of obtaining the academic credentials necessary 
for advancement in grade and rank that resulted from frequent 
deployments, and he recognized the emerging potential of the 
Internet to mitigate the reliance upon on-the-ground 
instruction.
    From an initial cohort of 18 students, American Military 
University now enrolls over 70,000 military students and 
veterans, and its APU counterpart serves approximately 50,000 
more civilians, each of them taking advantage of more than 90 
programs of study. The university is regionally accredited by 
the Higher Learning Commission of the North Central 
Association. In 2011, its accreditation was reaffirmed for an 
additional 10 years.
    In the brief comments to follow I will focus on four 
qualities that I believe are critical to our conversation this 
afternoon: academic quality, institutional transparency, 
affordability, and what it means to be military-friendly.
    I would offer just a few indicators related to academic 
quality. First, APUS is a recognized leader in assessing online 
learning, as evidenced by it being cited in 2009 by the Sloan 
Consortium with its Ralph Gomory Award for Quality Online 
Education.
    Second, on the 2011 Educational Testing Service proficiency 
profile, APUS graduates exceeded the national norms in every 
academic category. Furthermore, 16 APUS students were 
designated as Presidential Management Fellows in 2012, which 
placed the university in the top 10 institutions nationally.
    On the matter of transparency, the university has an 
extraordinarily robust institutional research division, 
supported by a president who is committed to using data to 
measure institutional performance and to identify indicators of 
the university's success and fulfilling its mission on behalf 
of the students' educational objectives. The university 
publishes the results of this data analysis on its public 
website.
    It should be noted in this context that regulatory 
compliance has become an essential dimension of ensuring that 
servicemembers and veterans obtain the full value of their 
academic efforts and investments. APUS has successfully 
accommodated the rules and regulations of institutional and 
program-specific accreditors; presidential executive orders; 
the Departments of Defense, Veterans Affairs, and Education; 
and the appropriate authorizing agency in each of the 50 
states. This is both time- and resource-intensive, and while 
the university embraces the principle of accountability, the 
increasing scope and number of regulatory hurdles has the 
potential to negatively affect institutional efficiency and 
limit educational options for military students and veterans.
    With regard to affordability, the university has not raised 
undergraduate tuition since 2001, and it is approximately 20 
percent less than the average in-state tuition at public 
institutions and 34 percent less than private nonprofit 
institutions. Also, it offers a book grant for undergraduate 
students that in most cases underwrites the full cost of 
instructional materials. Consequently, relatively few military 
and veteran students need to apply for loans, and even fewer 
need to do so to cover instructional-related expenses.
    I would like to state in this regard that, while no one 
questions the importance of the current national discussion 
related to college affordability, America's military and 
veteran students do not deserve to be caught in its crosshairs, 
nor should their earned benefits be held hostage to that 
debate.
    Finally, the university's military culture continues to 
reflect the vision of its founder, but I believe that there are 
a number of other factors that underscore our commitment to 
serving military students and veterans well, and that can be 
applied and those factors can be applied elsewhere.
    In addition to the accessibility afforded by our robust 
online learning platform and the other attributes noted 
earlier, the university has implemented monthly rather than 
quarterly or semiannual course starts. We also have a very 
liberal leave policy that takes into account deployments, 
personal bereavement for fallen comrades, and other unforeseen 
circumstances that often affect students serving on active 
duty.
    A generous approach to accepting American Council on 
Education-certified military credits and transfer work from 
other accredited institutions enables our students to complete 
their programs of study without duplicating earned coursework, 
thus limiting their expenses, unnecessary taxpayer investment, 
and a time-to-degree completion. These and other policies and 
practices largely explain why nearly 70 percent of our newly 
admitted military and veteran students indicate they heard 
about AMU from a friend.
    We sincerely appreciate the willingness of this committee 
to recognize the dedication of our students and the efforts of 
those who are committed to their success. Together we can 
continue to advance Major Etter's vision to educate those who 
serve.
    Thank you.
    
    [The statement of Mr. Kitchner follows:]
    
    
    [GRAPHIC] [TIFF OMITTED] 
    
                                ------                                

    Chairwoman Foxx. Thank you very much.
    Dr. Sauer, you are now recognized for 5 minutes.

 STATEMENT OF DR. KEN SAUER, SENIOR ASSOCIATE COMMISSIONER FOR 
 RESEARCH AND ACADEMIC AFFAIRS, INDIANA COMMISSION FOR HIGHER 
                           EDUCATION

    Mr. Sauer. Chairwoman Foxx, Ranking Member Hinojosa, and 
members of the subcommittee, thank you for this opportunity to 
testify. I serve as chief academic officer of Indiana's 
coordinating board for higher education, but I am also one of 
the leaders of a multi-state collaborative focused on 
maximizing ways servicemembers can translate their military 
training and experience into college credit, and it is in this 
capacity that I offer some remarks.
    The Multi-State Collaborative on Military Credit began 18 
months ago with a meeting of representatives from Illinois, 
Indiana, and Ohio. Since then, four other states--Kentucky, 
Michigan, Minnesota, and Missouri--have been added.
    The collaborative embraces several key premises.
    First, states, if they work together, can better meet the 
needs of returning servicemembers. And second, the federal 
government needs to work in close partnership with states to 
make progress in this area. States play an important role in 
identifying and publicizing institutional best practices and 
can coordinate statewide efforts to adopt these best practices.
    The third premise is that we support the recommendations on 
military credit that have been developed by the American 
Council on Education under contract with the Department of 
Defense. ACE has a long history of making these recommendations 
and we believe the approach they use of making site visits with 
faculty to military bases has integrity. Our interest is in 
having the recommendations used more and in developing feedback 
mechanisms for further enhancements.
    To that end, the collaborative urges ACE to reveal more of 
the information that is garnered from these site visits, more 
importantly--most importantly--the specific competencies and 
skills or learning outcomes acquired through the military 
training so that institutions can better award credit for the 
right course. This will help to ensure that veterans are 
earning credit for courses that will count toward the degree 
program they are pursuing and will permit them to complete 
their studies within the time limit allowed by the Post-9/11 
G.I. Bill.
    The collaborative would also like to have the complete data 
file of all military occupational specialties and ratings and 
the corresponding ACE credit recommendations to be made public 
for inclusion in widely-used software that is designed to 
facilitate transfer of credit among institutions. At least 17 
states, including Indiana and four other states in the 
collaborative, as well as hundreds of individual institutions 
and campuses, license software that makes it easier for 
institutions to determine and store transfer equivalencies: 
``This course at this institution is equivalent to that course 
at that institution.''
    The contract that the Department of Defense has with ACE 
does not allow the vendor I am referring to, CollegeSource in 
this case, as well as other vendors from freely downloading 
that file and making it available for institutions to access. 
This makes it more difficult for institutions to make full use 
of the ACE credit recommendations and it prevents metrics from 
being developed that would give the Department of Defense, ACE, 
and other stakeholders data on how the ACE credit 
recommendations are actually being used by institutions.
    I would also add that as a result of the collaborative 
bringing this problem to the attention of the Department of 
Defense, our contact at the department is now working on this 
issue.
    The Multi-State Collaborative is also interested in 
identifying examples of how institutions are translating 
military credit and experience into substantial progress toward 
earning a degree or acquiring a license. In Illinois, community 
colleges have developed a transition program that allows Basic 
Medical Corpsmen to take a specially-designed course, 
completion of which qualifies them to become a licensed 
practical nurse. In Indiana, Ivy Tech Community College has 
identified relevant military training and experience that can 
equate to about half of the major coursework needed to complete 
associate degrees in criminal justice and construction 
technology.
    These examples benefit all parties. They save money for 
both the veteran and the taxpayer; they help ease the 
transition from military to civilian life; and they also 
contribute toward a better-educated workforce.
    Members of the Multi-State Collaborative have more recently 
identified two other areas that need attention: data and 
communications. In the interest of time I will simply say that 
we need to collect better data on veterans enrolled in our 
colleges, and we need to develop better communication tools to 
let veterans know about what opportunities are available to 
them.
    I am grateful to the members of the subcommittee for 
convening this important hearing, and thank you for the 
opportunity to contribute testimony.

    [The statement of Mr. Sauer follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
                         ------                                

    Chairwoman Foxx. Thank you very much.
    And I think everybody here knows this, but just in case, I 
will say all the testimony you have submitted will be put in 
the record, and some of you have very extensive testimony and 
very excellent testimony.
    I would now like to recognize the chairman of the full 
committee for his--give him an opportunity to ask questions.
    Chairman Kline?
    Mr. Kline. Thank you, Madam Chair, for the hearing.
    Thanks to the witnesses for coming. Excellent testimony. 
You can see your dedication to helping our men and women in 
uniform--those in uniform now and those who have been and those 
who will be.
    A special thank you to Ms. Rhinehardt for bringing Tyler. 
She is sitting back there taking notes. It is an example for 
all my colleagues up here. I hope you are paying attention.
    I think we share a common goal up here. This is one of 
those hearings where I think every single person sitting up 
here and every person in the room wants to do the very best we 
can to help our veterans, our men and women in uniform, get the 
education they need to enhance their opportunities for a good 
job, better life, all those things that a good education 
brings.
    I am going to yield the remainder of my time to one of 
those veterans, my friend and colleague, medical doctor, 
because I know this is an issue of great personal importance to 
him.
    Dr. Heck?
    Mr. Heck. Thank you, Mr. Chairman.
    Thank you all for taking the time to be here to address 
this important issue. And we heard in some of the opening 
statements about, for instance, the 90/10 rule and the concerns 
that some colleges have about potentially including military 
assistance--educational assistance programs within the 90/10 
rule.
    I have traveled and visited many of the proprietary schools 
within my district. It certainly is an area of concern for 
them, and one of the things that they consistently bring up is 
how this 90/10 rule actually results in them having to 
artificially inflate their tuition costs in order to maintain 
that 90/10 ratio, and they have said that without that 90/10 
ratio they could probably lower tuition across the board for 
everyone.
    With that as an example, and realizing the need for 
reasonable regulation to protect the students as well as the 
taxpayer, what are some examples of the regulations that you 
have faced that have either helped you in delivering services 
to veterans or hindered you in delivering services to veteran 
students?
    Let's start with you, Mrs. Rhinehardt?
    Mrs. Rhinehardt. I would say it is the preponderance of 
regulation that has been difficult. You know, with an influx of 
so many servicemembers, both active duty and veterans, coming 
into the UNC system, you know, we already--we were down our 
path and we had a well laid out plan, and it--over the course 
of several years it felt like the rules kept changing and that 
was difficult, particularly for offices on campus that aren't 
used to dealing with the rules and regulations of the 
Department of Defense and the V.A. So I--my answer would be 
that it is the totality and not any one rule or regulation in 
specific.
    Mr. Heck. Dr. Kirk?
    Mr. Kirk. I would concur. We have been trying to inventory 
all of the regulations, and I know, and from all the offices of 
government, from Internal Revenue to Veterans to DOE, and we 
are well beyond 176 in our inventory and they seem to just keep 
growing. So it is the preponderance.
    Mr. Heck. Dr. Kitchner?
    Mr. Kitchner. Thank you. In addition to concurring in 
general with my colleagues, I would offer one different 
perspective, and that is that the regulations themselves are 
often helpful in providing institutions with benchmarks and 
opportunities to gauge the effectiveness and how well they are 
meeting the needs that have been identified by various 
agencies.
    So in that regard I can say that there is a benefit, a 
value added, to having a body of appropriate regulations, and 
it really becomes incumbent upon Congress and the various 
agencies that work with veterans to be conscious of the fact 
that there is such a thing as too much of a good thing.
    Mr. Heck. Thanks.
    Dr. Sauer?
    Mr. Sauer. Yes, I would concur with the remarks made 
previously but I would add one item that specifically relates 
to online education, and Dr. Kitchner had mentioned this. There 
is a new way of looking at interstate regulation of online 
education--the State Authorization Reciprocity Agreement, or 
SARA, as it is known by its acronym. And I think this holds 
great promise for striking a balance between ensuring that 
there is some basic adequate oversight of online education, 
which would perhaps keep the bad actors out, but also give the 
good actors--and most of our colleges and universities do 
provide very strong online education--it would free them from 
some of the regulations and costs that are currently associated 
with delivering online education.
    Mr. Heck. Great. Thank you.
    Thank you all very much.
    I yield back, Madam Chair.
    Chairwoman Foxx. Thank you.
    Mr. Hinojosa, you are recognized for 5 minutes.
    Mr. Hinojosa. Thank you.
    I want to thank the panel because your statements are very 
informative and something that is greatly needed as we are 
trying to re-deploy and bring back the active soldiers from 
Afghanistan by the end of 2014. So I think that members of 
Congress are all anxious to learn about this information that 
is working and how they can use them in their respective 
congressional districts.
    So I am going to ask my first question of Ken Sauer.
    Dr. Sauer, licensure is typically done through state 
boards. Is there any way to make progress on getting veterans 
licensed other than by state basis?
    Mr. Sauer. Yes, Representative Hinojosa, I believe there 
is. I think it is important--as you correctly point out, most 
of the licenses are state-based in individual states and 
individual boards, and that is the way the licensure process is 
carried out. However, and I do believe, and members of the 
Multi-State Collaborative believe, that we do have to work 
within our own states to try to make it easier for veterans to 
apply some of their training and experience toward obtaining a 
license, either directly or indirectly through a program of 
study that would prepare one to be a license.
    But I think we can also work at the national level as well. 
Most state boards have associations, so we have an association 
of state boards of nursing, for example. And I think it is 
important to try to work at the national level as well, and I 
think if we attack the problem, if you will, from both a state 
level and from a national level I think we can make some 
progress on this issue.
    Mr. Hinojosa. Good.
    Mr. Sauer, the last question to you is, can you give us a 
couple of recommendations on how we can get more states 
involved in the work of the collaborative?
    Mr. Sauer. Well, the collaborative is happy to involve 
other states in its work. This is very much a grassroots 
effort. It started by several states that have a lot of contact 
with one another simply recognizing that we had a lot of common 
ground and common interest in trying to make it better for our 
servicemembers to make the transition to college.
    It has grown very quickly, and really the only thing we ask 
of a state is that they actively participate in the work of the 
collaborative. We have three work groups that tackle different 
problems, and we simply ask that a state be active in at least 
one of those work groups and really contribute toward the work 
that is going on.
    Mr. Hinojosa. Would you be willing to receive some 
delegations from our congressional district to visit with you 
and talk about this?
    Mr. Sauer. We would be delighted to.
    Mr. Hinojosa. Thank you.
    My next question is to Mr. Kitchner.
    In working with veterans, what services do they need, what 
do they desire that may be different than traditional students?
    Mr. Kitchner. Representative Hinojosa, you are asking what 
different services as an online student would they need, that 
would differ from on the ground?
    Mr. Hinojosa. Yes, because you all talked about veterans 
being different than the regular college students.
    Mr. Kitchner. Well, in many cases their needs are 
comparable. The difference between veteran students is they are 
typically working adults as opposed to immediate graduates of 
high school, so they have workload and family-load 
considerations that are factors. And in those cases where they 
are veterans who may suffer from PSTD or other military-related 
challenges, we have to accommodate the needs they might have in 
terms of their health--their emotional and physical health--and 
the online environment is a great leveler of the playing field 
to some extent, but it also offers its own challenges for those 
people, so we have to be sensitive to those challenges and 
accommodate them.
    Mr. Hinojosa. What in your system is helping veterans 
integrate back into civilian life?
    Mr. Kitchner. I am sorry. Would you repeat that?
    Mr. Hinojosa. Your system is very--is a successful system. 
Tell us how yours is helping veterans integrate back into 
civilian life.
    Mr. Kitchner. Well, I am not sure that I would say that is 
part of our core mission is to integrate them. We hope that as 
a result of their integration in a classroom with other 
students, both civilian and military, which is quite often the 
case, that they will find avenues for integration, but--
    Mr. Hinojosa. The reason for my question is that we are 
finding that jobs are sometimes difficult because we can't seem 
to match educated persons or trained individuals that can fill 
allied health and information technology, which are two sectors 
where we do have jobs to fill. So we have got to integrate them 
into the civilian life and explain to them that if they could 
just take some additional hours and add it to the training they 
received in the military they would probably be hired.
    Mr. Kitchner. That is an excellent point, and I think the 
best that we can--the best that we can offer--is a wide variety 
of programs that are career-related and vocationally relevant 
to their interest and backgrounds, and that is why we have as 
many programs as we do, many of them sort of on demand because 
veterans have asked for them or military students have asked 
for them.
    Mr. Hinojosa. Thank you.
    I yield back.
    Mr. Kitchner. Thank you.
    Chairwoman Foxx. Thank you very much.
    Dr. Heck, you are now recognized.
    Mr. Heck. Thank you, Madam Chair.
    I would ask, you know, there certainly are several 
different programs currently available for both active duty and 
veteran members in trying to seek higher education, whether it 
is the Montgomery G.I. Bill, the Selected Reserve Montgomery 
G.I. Bill, the Reserves Educational Assistance Program, Post-
Vietnam Education Assist, Post-9/11--I mean, there is a whole 
host of possibilities for veterans and active duty members to 
take advantage of, including tuition assistance. What are the 
potential advantages and disadvantages of streamlining and 
simplifying the different benefits and programs that currently 
serve servicemembers and veterans pursuing higher education?
    Mrs. Rhinehardt?
    Mrs. Rhinehardt. I am not sure I am qualified to answer 
that question, but I do think that you raise an important point 
that there are so many different ways that a servicemember or a 
veteran can financially pay for their college experience, that 
one of the things that we are doing as a UNC system is we are 
building the Military Educational Positioning System Portal so 
that--essentially it has a decision tree so the veteran can 
enter in personal information about whether they have invested 
in the Montgomery G.I. Bill, whether they have the Post-9/11 
G.I. Bill, and at the end it spits out, you know, ``You are 
most likely to want to use the following as your benefit 
first;'' because, you know, there is a chemistry between the 
programs and you can be on the losing end if you are not very 
well aware of how each of those programs work together.
    Mr. Heck. Well, I applaud you and the university system for 
developing that, because I know several members that as they go 
through their transition assistance program as they out-process 
and they watch their two-day slideshow talking about some of 
the potential benefits that they don't quite understand what is 
truly out there and available to them and would best meet their 
needs, so congratulations.
    Dr. Kirk, anything?
    Mr. Kirk. Yes. We have actually increased the number of 
veterans' counselors from 20 to 52 over the last several years 
and, as I mentioned in my testimony, have done a tremendous 
amount of training. Simplification will be better for the 
veterans. Sorting through all that is very difficult for them, 
and I think can be a barrier.
    And the other thing is stabilizing the requirements. We are 
constantly training our people because things are constantly 
changing, and the vet can get caught in that.
    Several summers ago we actually paid the rent for a number 
of veterans because they hadn't enrolled full time in summer 
school and the rules had changed and somehow they missed it and 
they couldn't get their housing allowances because they weren't 
enrolled full time. We stepped up and paid their rent so they 
didn't get evicted, but those kinds of changes can throw them 
way off course.
    Mr. Heck. Dr. Kitchner?
    Mr. Kitchner. Dr. Kirk is exactly on target in at least two 
respects. Number one, the availability of capable, 
knowledgeable advising staff is absolutely critical--people 
that can help navigate the myriad of rules and regulations 
through the Department of Defense or the Veterans 
Administration both, coupled with some support for that process 
that you articulated, where individuals are about to be 
discharged and they go through that one-or two-day orientation 
to the civilian life that is somewhat out of context.
    And I think what we need to be thinking about is 
implementing a transition that involves the colleges, 
universities in that process and bring some of the resources 
that we are striving to develop--bring those resources to bear 
in the context of those pre-discharge events and counseling. 
And I think it could smooth that transition remarkably.
    Mr. Heck. Great. Thank you. Very helpful.
    Dr. Sauer?
    Mr. Sauer. Yes. Just picking up on the point about academic 
advising, which I very much agree with, I think we need to work 
on making the academic advising much more consistent to try to 
develop tools that can be widely used so that veterans have 
access to the same information and that they are getting it in 
an easily understandable form.
    Dr. Kitchner also mentioned the time period just--involving 
the discharge. I think it would be helpful if we could work 
with base education officers prior to that time to try to get 
veterans, as they begin to think about the transition, to think 
about their opportunity to have information to evaluate much 
before that week in which they are making the transition 
itself.
    Mr. Heck. Great.
    Again, thank you all very much for being here.
    And thank you.
    Mr. Kirk. May I add, Congressman--
    Mr. Heck. I am out of time but I will yield to the chair 
if--yield back.
    Chairwoman Foxx. You yield back. Okay.
    Mr. Loebsack?
    Mr. Loebsack. Thank you, Madam Chair.
    It is great to have all you folks here today. I really 
appreciate what you are trying to do for our veterans. I think 
it is maybe particularly appropriate that we are having this 
discussion today on 9/11, the anniversary of the terrible 
terrorist attacks on our country in 2001.
    I am also on the Armed Services Committee. I am also a 
military parent. I have two kids I saw last night, my stepson 
and his wife, who are in the Marine Corps; they have been 
deployed. They are a little more fortunate in the sense that, I 
mean, they are at the Command and Staff school at the moment at 
Quantico, so they are kind of with folks, you know, who have 
had some similar experiences. They are not at a traditional 
university or a traditional college where they have to go and 
try to fit in and have differential experiences and that kind 
of thing. Although, I taught, myself, at a small college in 
Iowa for 24 years prior to 2006 and I did my best as a 
professor to try to deal with folks who were coming back from 
these wars, but it was not always easy, not having served in 
the military myself and had that experience.
    So I understand and I really, really appreciate all the 
things that folks are trying to do to get these folks back--get 
them on the ground, keep them as healthy as possible, 
especially psychologically for a lot of those folks who come 
back. I think it is really critical.
    The University of Iowa has a wonderful program--I represent 
the University of Iowa in my district and I was just at an 
event at the Military and Veteran Student Services Center 
there. They are doing a great job. I know a lot of 
universities, lot of colleges, lot of folks are trying to do 
the best that they can to make sure that these folks can make 
this transition.
    I do want to just make sure, if I could--I want to request 
from those who have concerns about regulations but were either 
unable or whatever to specify specific regulations that are 
concerns--I understand the totality argument, but for the 
record, if folks could submit to me specific regulations that 
get in the way, that you have concerns about, that sort of 
thing, I would like you to do that in writing if you could, 
please. I would appreciate that.
    Beyond that, I do want to talk--ask about the credentialing 
process.
    And in particular, Dr. Sauer, you mentioned this. I mean, 
we have the federal level and we have the state level. Lot of 
different states have--do this in a different sort of way. Do 
you think there is any role to play on the part of the 
Department of Defense in all of this to coordinate more closely 
with the states when that transition process occurs?
    Mr. Sauer. Yes, I certainly do. And in fact, there is an 
academic credentialing task force which has just been formed 
and we were pleased that when this task force was being put 
together we had a representative of the Department of Defense 
who found out about the work of the Multi-State Collaborative 
and participated via conference call in one of our meetings--
    Mr. Loebsack. By the way, Iowa is not part of that 
collaborative. Is that correct?
    Mr. Sauer. That is correct.
    Mr. Loebsack. Unfortunately, but we will look into that. 
But go ahead.
    Mr. Sauer. So I think we do now have an opportunity to work 
with the Department of Defense on some of these issues. But the 
short answer is yes, I certainly believe that a real 
partnership between the states and the federal government--and 
I would say, actually, not just the Department of Defense, but 
I would include also the Department of Education and the 
Veterans Administration. And in fact, all three of those 
federal agencies that I mentioned are part of this academic 
credentialing task force, so there--it is really a joint effort 
on the part of those three departments.
    So I think if we could have a more, a closer relationship 
between states, and in our case the Multi-State Collaborative 
and federal agencies that are involved in this, I think we 
could make some progress.
    Mr. Loebsack. Okay.
    Mrs. Rhinehardt. Sir, may I add a follow up?
    Mr. Loebsack. Please, go ahead.
    Mrs. Rhinehardt. I don't want folks to leave thinking that 
there is no effort going on between the DOD and states because, 
you know, we are home to a very large Marine Corps contingent--
    Mr. Loebsack. I am aware of that.
    Mrs. Rhinehardt [continuing]. That we are very proud of. 
And the Marine Corps actually is--you know, has designed a very 
elaborate educational process where the day that you enlist you 
start your educational plan. So we work closely with Marine 
Corps Base Camp Lejeune and their base education office, so 
those Marines--the new Marines when they come in, they are 
already starting their educational pathway.
    We do that in North Carolina, and we are proud of the 
relationship that we have with them.
    Mr. Loebsack. Thank you.
    Thanks to all of you.
    And thank you, Madam Chair.
    Chairwoman Foxx. Mr. Loebsack.
    Congresswoman?
    Mrs. Brooks. Thank you, Madam Chair, and thank you for 
convening this very important hearing. And I must share that I 
have worked with Dr. Sauer because I was at Ivy Tech Community 
College as some of these, prior to coming to Congress, as some 
of these initiatives began.
    And I would like to continue on that discussion and I am 
glad that you, Mrs. Rhinehardt, talked about what North 
Carolina is doing and I am curious to hear from each of you to 
build on what is happening in Indiana and with the other 
states.
    What are our colleges and universities doing with respect 
to prior learning assessments and ensuring that we take the 
skills and the training and--the incredible skills and training 
that our men and women receive in the military and give them 
either credit or go through a prior learning assessment by our 
faculty and staff to give them credit? What is happening in 
your institutions, particularly if we don't have yet, it sounds 
like, a completely clear path from the Defense Department to 
transfer through either a certification process directly to 
your institutions?
    And if you would like to just expand, and then I would like 
to hear from everyone else.
    Mrs. Rhinehardt. Absolutely. I would like to reiterate that 
the ACE guide is a recommendation only and our faculty always 
reserve the right to look under the hood of that military 
learning that the servicemember received when they were in 
service, and we have done that.
    Let's take, for example, you know, we are home to the U.S. 
Army Special Operations Command, where they train all of the 
Special Operations medics. These folks are probably more 
skilled in medicine than most allied health professionals in 
the civilian world.
    And so our faculty at UNC Chapel Hill who work in emergency 
medicine and at the Jaycee Burn Center started a dialogue with 
them about these Special Forces medics instructors coming up 
and doing rotations with the faculty at UNC Chapel Hill. That 
led to a discussion about, ``Hey, I would like to come down and 
see your curriculum.'' It was clear to them, to the faculty, 
that the folks are--these Special Operations medics are, you 
know, a quarter of the way down the road toward a P.A. degree.
    So UNC Chapel Hill didn't have a physician's assistant's 
program. They are in the process of establishing one, after a 
fight with the nursing program. But we are establishing a P.A. 
program because the faculty recognized the unparalleled 
military learning that these folks received, and so they will 
receive credit when they come in and hopefully we are going to 
be able to transition some of the most amazing medical 
professionals into the rural parts of our state that we need 
more emergency medicine professionals in and counties that 
don't even have an emergency room doctor, that--
    Mrs. Brooks. Well, and thank you. I am glad that they have 
acknowledged that. I am curious, though, what will it take to 
move us further rather than program by program, you know, a 
faculty member or a program--what can we do to have the much 
stronger collaboration between the Defense Department and our 
colleges and universities so it is much more seamless rather 
than what sounds to be a bit more happenstance right now?
    And maybe Dr. Kirk or others, I mean--and I appreciate and 
applaud what is happening, but yet it seems like it just is not 
systematic at this point and I think we are missing an 
opportunity, and I would like to find out what your ideas are 
about how we can fix that.
    Mr. Kirk. We do accept all ACE credit for military training 
and experience and all of those credits. Took some doing many, 
many years ago to keep the faculty from wanting to do a second 
take on that, but we have crossed that bridge and accept that 
all.
    We also do provide opportunities for prior learning 
assessment through the Council for Adult and Experiential 
Learning LearningCounts system, and we have a robust testing 
program, CLEP and others, that will speed the way to a degree. 
In fact, many of our military centers' classrooms serve as 
testing services--testing centers, and we monitor those tests. 
So we are trying to do all we know and adopt all the best 
practices to facilitate that.
    Mrs. Brooks. Thank you, doctor.
    I am sorry. My time is expired.
    I yield back.
    Chairwoman Foxx. Ms. Bonamici?
    Ms. Bonamici. Thank you very much, Madam Chairwoman.
    Thank you all for your testimony today. I agree with my 
colleagues who have pointed out how fitting it is that we are 
having this discussion on the anniversary of September 11th.
    I really appreciate all your testimony.
    Mrs. Rhinehardt, I especially wanted to acknowledge your 
testimony and appreciate everything that you are doing in North 
Carolina. I especially want to point out where you talk about 
the UNC Partnership for National Security, and I think you 
raised a very poignant point here where you say that, you know, 
the soldier that deploys may be our family member, friend or 
neighbor; the family that they leave behind is our family.
    The education that the servicemember needs is crucial to 
the mission because the most important weapon that he or she 
has is not an assault rifle but their mind. And you talk about 
the ability to adapt to changing environments, use critical 
thinking skills, learn a foreign language, employ negotiation 
skills, apply conflict management lessons.
    I think that is a good reminder of how important this 
education is to those who are serving our country. So I 
appreciate that very much, wanted to point that out and thank 
you for all you are doing in North Carolina.
    I also wanted to thank my colleague, Congresswoman Brooks, 
for asking the question that I was going to ask about what we 
can do to make sure that our servicemembers get credit hours 
for their past service. And I have had people who have served 
come into my office and tell me about everything that they did 
and they are a little frustrated about why they can't get 
credit for that work that they have already done.
    So I am going to explore a different issue and I wanted to 
talk a little bit about this 90/10 rule. Now, I wasn't here 
when it was implemented and passed. My assumption is that it 
was designed to ensure that students have some skin in the game 
and probably to crack down on some of the abuses.
    But I wanted to talk about what appears to be sort of the 
unintended consequence that has resulted in what appears to be 
more of an incentive to recruit servicemembers to for-profit 
institutions, and I know that there are examples that were 
raised in the articles in the testimony--prior testimony of Ms. 
Petraeus in another committee. So I would like to talk a little 
bit about that.
    I know that the Department of Defense has recently updated 
its rules against aggressive solicitation by educational 
institutions on military installations and finalized the Know 
Before You Owe shopping sheet for veterans. So will you please 
all address this issue of--none of us want the abuses that we 
have heard about--people being recruited who shouldn't be 
recruited, misinformation provided.
    So can you talk about how we can make sure that those 
abuses are stopped? And if you would address whether you 
believe these--what appear to be fairly new rules -
    are really going to do what they are designed to do and 
crack down on that overly aggressive solicitation of our 
veterans?
    Thank you.
    And, Dr. Kitchner, you look like you are ready to start.
    Mr. Kitchner. Well, I think I am probably the poster child 
for a 90/10 issue in the sense that I represent a for-profit 
university, and we are currently--our mix of students currently 
puts us well underneath that 90/10 issue. What we find 
disconcerting about the conversation around changing 90/10 and 
folding T.A. and V.A. into that formula is it could have the 
perverse effect of restricting the students from attending a 
university that they really want to attend and where there may 
be programs that are unique to their interests and they would 
be excluded from that.
    There is also the potential for, you know, an increase in 
cost to offset 90/10. I am not sure I want to speculate on the 
degree of relevance of that. I think there is some relevance to 
it, but I wouldn't want to overstate it.
    I think the more important question, really, is what effect 
changing it would have on redlining, in a sense--that 
institutions would stop serving the very populations that need 
our services the most, that need education the most. I would 
hate to see institutions that are doing a very good job being 
held back from fulfilling that mission simply because of a 
regulatory provision that had that perverse effect on 
restricting their ability to do that.
    Ms. Bonamici. And do you think that the new rules, the 
updated rules from the Department of Defense, are going to 
crack down on the overly aggressive solicitation?
    Mr. Kitchner. I honestly believe they have great potential 
for doing that. I think it is going to depend on how well the 
terms are defined and how well they are implemented but I--
because I think some of the regulations and the rules that have 
been discussed talk about graduation rates and employment rates 
and those are terms that even the Department of Education has 
not yet fully established concrete definitions for them.
    And so there is a lot of work yet to be done in terminology 
and measurement--appropriate statistics for measuring the 
concepts, but I think the Department of Defense is headed in 
the right direction, and I think that the MOUs and other 
initiatives that relate to making sure that veterans and 
military students in general are being well served have 
potential as long as they are not overlapping and 
contradictory.
    Ms. Bonamici. Thank you very much.
    And I see my time is expired. Thank you, Madam Chairwoman.
    Chairwoman Foxx. Thank you.
    I will now recognize myself for 5 minutes.
    Mrs. Rhinehardt, in your written testimony and you briefly 
touched on the initiatives put forward by the Obama 
administration in your spoken testimony--in early August the 
president gave a speech outlining eight keys to success for 
higher education institutions to follow as they serve 
servicemembers and veterans. When this initiative was unveiled, 
the president noted 250 institutions had already agreed to push 
these efforts on campus.
    Was the UNC system asked to join the Eight Keys to Success 
effort? Do you know the criteria that the Department of 
Education used to recruit colleges in this effort?
    Mrs. Rhinehardt. No, we were not asked. I learned about 
it--a colleague of mine forwarded a press release to my e-mail 
and I was--you know, the secretary of the V.A. had just been to 
UNC system and commented that we were the most coordinated 
system of higher education in the country that he had ever 
seen, so you can imagine our disappointment that we weren't 
asked because we are very--we feel proud of what we are doing 
and want to communicate to all veterans that we support them.
    Chairwoman Foxx. Thank you very much.
    Now I would like to ask all of the witnesses--and, Dr. 
Kitchner, perhaps I will start with you since you have gotten 
left out a couple of times and we will try to get you and Dr. 
Sauer in and go the other way.
    In your experience in educating the student veteran 
population, what are two best practices done at your 
institution that you think could be adapted to other 
universities, and have you shared these best practices with 
other colleges and universities?
    Mr. Kitchner. I will take my cue and respond. One of the 
things that I think is absolutely essential is to prepare our 
faculty to work with veteran students, understanding that they 
come to the classroom with some special challenges and in all 
likelihood have life situations and experiences that differ 
from your traditional college-age student. So I think we need 
to make sure that faculty are oriented and prepared to address 
that population effectively and to make accommodations for 
their circumstances.
    And it happens that we have a retired colonel on our 
faculty who is a--who teaches a seminar on preparing faculty to 
teach veterans and military students, and he teaches that 
seminar for faculty all over the country and it is a very 
successful one. I think that is a very important part of it.
    Chairwoman Foxx. Okay. A second one very quickly, or do you 
want to stop with that one?
    Mr. Kitchner. I will yield to my colleagues.
    Chairwoman Foxx. Okay.
    Dr. Sauer?
    Mr. Sauer. Well, in the spirit of representing a multi-
state collaborative, I am going to point to--
    Chairwoman Foxx. Sure.
    Mr. Sauer [continuing]. One of our members states, 
Minnesota, that I haven't mentioned before. Minnesota has 
developed a really terrific website and it is very veteran-
friendly and provides a lot of information, and I think 
communication and academic advising is so critical. I think it 
is really important to pay attention to this area, and the 
Minnesota State Colleges and Universities, in particular, have 
developed this website.
    This is a variation of that, but it is a second--you called 
for two--you asked for two practices, and I will again point to 
the Minnesota State Colleges and Universities. They really have 
made very good use of the data file of the military 
occupational specialties and the ACE credit recommendations. 
And it was unfortunate that for reasons that I am not quite 
sure about the access to that was cut off through the 
Department of Defense, and this is why I mention the need to 
try to work on the contract to make that information available.
    Chairwoman Foxx. Dr. Kirk?
    Mr. Kirk. Beyond training faculty, the staff advisors, and 
community, law enforcement, recognizing post-traumatic stress, 
teachers--because the children of veterans, certainly those 
that went through multiple deployments, exhibit many of the 
characteristics of foster children, and recognizing and dealing 
with that. And then our mentorship program--we have many 
faculty and staff who are themselves veterans, and having them, 
whether they are in administrative technology positions outside 
and away from students, mentoring student vets has been very, 
very important to them.
    Chairwoman Foxx. Thank you.
    Mrs. Rhinehardt?
    Mrs. Rhinehardt. Thank you, Dr. Foxx.
    I would say that the one-stop shop concept is very 
important. Folks want to go to one place for information with 
clearly articulated steps for each process that they need. And 
that could be virtual, that could be a physical location on 
campus. That is the most important thing that we can do.
    I also think it is very important for leadership of a 
college or university to really signal to the rest of the 
campus how important this population is, so I think leadership 
from the top--that commitment from the president, the 
commitment from the chancellor--makes a huge difference in how 
that campus responds, because from every faculty member I have 
ever talked to who have had these students in their classrooms, 
they say that by far these students make a huge difference in 
the conversations that occur--they add value, and frankly, they 
are some of our very best students.
    Chairwoman Foxx. Thank you all very much. Thank you again, 
for the distinguished panel, for taking your time today.
    Mr. Hinojosa, do you have closing remarks?
    Mr. Hinojosa. Thank you, Madam Chair.
    I would like to thank you all--each and every one of the 
panelists for sharing your insights and expertise on these very 
important issues that we discussed today. This has been very 
informative and will be very helpful to all members of 
Congress.
    As this committee moves forward with the reauthorization of 
the Higher Education Act I look forward to working with my 
colleagues on this committee to support higher education 
opportunities for our nation's servicemembers and veterans. I 
believe that this committee must ensure that veterans and 
servicemembers are protected from predatory practices and can 
fully benefit from federal higher education programs.
    I thank you.
    Chairwoman Foxx. Thank you, Mr. Hinojosa.
    I wanted to recognize one other person who is here with me 
today, and that is Jason Harvey, who is doing an internship in 
my office. Jason is a Marine veteran and took advantage of the 
programs we have been talking about here today, got his degree 
from George Washington, and is interested in the public policy 
arena. And we are absolutely delighted to have him with us.
    I want to again thank all of you all for being here. We had 
actually a hearing yesterday on research and how best to use 
research in application in education, and I said that I felt 
like it was deja vu all over again because these conversations 
have been going on for a long time.
    As someone who used to be full time in the education arena, 
I think about the things that I was involved with when I was 
there. I actually set up a transfer, a program at Appalachian 
State University when I was there, to ease the transition for 
transfer students coming to Appalachian. We had always had a 
very vibrant transfer population and we were doing everything 
that we could to make it possible for the students to get the 
credit that they needed.
    So this issue about transfer of credit has gone on, I 
guess, as long as we have had higher education. It boils down 
to the issue of academic freedom and faculty and departments 
being very jealous of their programs and wanting to make sure 
of the integrity of the programs that their graduates have.
    So it isn't something that has just recently cropped up; it 
is out there and has been out there for a long time. And I say, 
you know, it is--Ms. Bonamici asked the question, ``How do we 
guarantee that more of this is done?'' Other people have gone 
at that issue.
    And it is a tough one, and I don't think it is where the 
federal government should be involved, and I think the higher 
ed community would rise up in arms if the--if we do. But I 
think what is being done to honor the experiences that are 
gained through the military is very important.
    And, Mrs. Rhinehardt, I really am very proud of the 
University of North Carolina system and my alma mater for all 
that you are doing there and for the leadership that you are 
providing. And we know that you understand about working with 
the military when you say Camp Lejeune. That got my attention 
because most people do not say that and the Marines know that 
that is the appropriate term to use.
    But I think progress is being made and it is obvious, 
again, from the things that you are saying that progress is 
being made to help our veterans and help our active duty 
military. And I appreciate all that you all are doing and I 
just hope that the good practices that are being utilized in 
your institutions and by other institutions are going to be 
spread out and that we do honor these people in an appropriate 
way.
    And, as I said, as we work to reauthorize the higher 
education legislation next year we will be keeping your 
testimony in mind. And as other people have said, we all have 
the same commitment--all of us here, whatever our party is, and 
most of the people in this country--to honor our veterans and 
our military people.
    So, there being no further business, the subcommittee 
stands adjourned.
    [Questions submitted for the record and their responses 
follow:]
                                             U.S. Congress,
                                  Washington, DC, November 6, 2013.
Dr. Arthur F. Kirk, Jr., President,
Saint Leo University, Office of the President--MC2187, P.O. Box 6665, 
        Saint Leo, FL 33574-6665.
    Dear Dr. Kirk: Thank you for testifying before the Subcommittee on 
Higher Education and Workforce Training at the hearing entitled, 
``Keeping College Within Reach: Supporting Higher Education 
Opportunities for America's Servicemembers and Veterans,'' on 
Wednesday, September 11, 2013. I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than November 22, 2013 for inclusion in the final hearing record. 
Responses should be sent to Amy Jones or Emily Slack of the committee 
staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                 Virginia Foxx, Chairwoman,
           Subcommittee on Higher Education and Workforce Training.
                    chairwoman virginia foxx (r-nc)
    In your written testimony, you mention that Saint Leo provides 
academic credit for the prior learning experiences of student veterans. 
Could you provide us a few examples where that has taken place? Also, 
is this benefit provided for just student veterans or all students?
                  representative dave loebsack (d-ia)
    In your view, what are the specific regulations that institutions 
of higher education must comply with pertaining to veterans and 
servicemembers that are overly burdensome?
                                 ______
                                 

       Dr. Kirk's Response to Questions Submitted for the Record

    In you written testimony, you mention that Saint Leo provides 
academic credit for the prior learning experiences of student veterans. 
Could you provide us a few examples where that has taken place? Also, 
is this benefit provided for just student veterans or all students?

    This benefit is provided to all students, but through the American 
Council of Education (ACE) program of evaluating military training and 
assigning, where appropriate, course credit equivalencies, active-duty 
military and veterans generally can earn more credits, more easily. The 
university uses LearningCounts to help students develop substantive 
portfolios of prior, non-academic learning other than ACE evaluated 
training and then assess the amount of credit to be awarded. We, of 
course, also encourage students to avail themselves of CLEP, DANTES and 
other testing opportunities to earn credits. We operate ``testing 
centers'' at many of our locations for any active-duty military or 
veteran interested in earning credits this way regardless of what 
college they are attending or intend to enroll in.

    In your view, what are the specific regulations that institutions 
of higher education must comply with pertaining to veterans and 
servicemembers that are overly burdensome?

    The VA requires schools to report graduation data when the VA works 
with the National Student Loan Clearinghouse and has the graduation 
information already. This is a duplication of efforts.
    The net payer regulation put into effect in 2011 put an additional 
strain on Florida certifying officials who have to reduce for FRAG (The 
Florida Resident Access Grant). This has caused many problems with 
overpayments and unhappy students.
    The current Post 9/11 GI Bill regulation regarding (withdrawals) is 
counterintuitive. A student who is failing a class is typically advised 
by his/her advisor to withdraw minimizing the impact of their GPA. 
Unfortunately, for student veterans the VA will only cover the cost of 
a repeated course if he/she received an ``F''.
    The proactive student is penalized and is then required to pay out-
of-pocket for the repeated course. Although, this may not be an 
institutional burden, it does have larger implications such as GPA, 
retention, and employment. However, the VA will allow veterans to fail 
a class multiple times and continue to pay 100% for the class. This 
hurts the student's progress to their degree and costs the VA extra.
    Determining term certification eligibility of Active Duty students 
on Page 85 of the book defines ``Tuition Assistance (TA) as a DoD 
program. Rules for this program vary by branch of service and can even 
vary between components within the branches * * * If a student receives 
education benefits from VA and receives TA benefits from the military, 
duplication of benefits may be an issue.'' Determining if there is an 
issue tends to fall on the school. Two pages of the Handbook attempt to 
define potential duplication issues. Compiling information from the 
student, branch unit, and VA on a case by case situation is definitely 
burdensome. (It involves crucial work hours, questioning students who 
often don't have a clue whether their funds are Federal or State-
funded, and sometimes even education unit Education Service Officers 
(ESO's) who are telling the military personnel they CAN use TA and Post 
9/11 benefits together. While technically true, only Net Tuition can be 
reported to the VA (often resulting in a waste of the serviceperson's 
educational benefits).
                                 ______
                                 
                                             U.S. Congress,
                                  Washington, DC, November 6, 2013.
Dr. Russell S. Kitchner, Vice President,
Regulatory and Governmental Relations, American Public University 
        System, 111 W. Congress Street, Charles Town, WV 25414.
    Dear Dr. Kitchner: Thank you for testifying before the Subcommittee 
on Higher Education and Workforce Training at the hearing entitled, 
``Keeping College Within Reach: Supporting Higher Education 
Opportunities for America's Servicemembers and Veterans,'' on 
Wednesday, September 11, 2013. I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than November 22, 2013 for inclusion in the final hearing record. 
Responses should be sent to Amy Jones or Emily Slack of the committee 
staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                 Virginia Foxx, Chairwoman,
           Subcommittee on Higher Education and Workforce Training.
                    chairwoman virginia foxx (r-nc)
    In your testimony, you've detailed the tremendous support and 
services that APUS provides to student veterans. Have you worked with 
other institutions to share these best practices or help other 
institutions develop their own set of veteran-friendly policies on 
campus?
                  representative dave loebsack (d-ia)
    In your view, what are the specific regulations that institutions 
of higher education must comply with pertaining to veterans and 
servicemembers that are overly burdensome?
                                 ______
                                 

     Dr. Kitchner's Response to Questions Submitted for the Record

    Please accept the following in response to your letter of November 
6, 2013 in which you and Rep. Loebsack sought additional information 
subsequent to the Subcommittee hearing on September 11, 2013. You 
stated your specific question as follows:
    ``In your testimony, you've detailed the tremendous support and 
services that APUS provides to student veterans. Have you worked with 
other institutions to share these best practices or help other 
institutions develop their own set of veteran-friendly policies on 
campus?''
    Indeed, one of the key dimensions of our culture and values as an 
institution of higher education is to be a resource to other colleges 
and universities. To that end our staff makes it a point routinely and 
regularly to attend national conferences, and to actively engage with 
our educational colleagues. The following examples are a good 
indication of the degree of our engagement with the higher education 
community:
    <bullet> DOD Worldwide Education Symposium
    <bullet> The Council for College and Military Educators
    <bullet> The Conference on Distance Learning Administration
    <bullet> The Sloan Consortium's Conference on Distance Learning
    <bullet> American Association of Collegiate Registrars and 
Admissions Officers
    In addition to our attendance at these and other meetings and 
conferences, our faculty and staff have given countless presentations 
and served as panelists in the context of programs designed to help 
other institutions effectively respond to the personal and educational 
needs of their military students and veteran students, including the 
following:
    <bullet> ``Wounded Warriors: The New Transfer Students of 
America''--AACRAO Annual Meeting
    <bullet> ``So What Are You Gonna Give Me?: A Transfer Credit Award 
Comparison''--CCME Annual Meeting
    <bullet> ``Prior Learning Assessment: Balancing Academic Quality 
and Enrollment Goals''--Academic Impressions Webinar
    <bullet> Presentation titled ``Students with PTSD: Is Your Faculty 
Prepared?''--CCME
    <bullet> ``Organizational Structures for Military Transfer 
Students''--DoD Worldwide
    <bullet> ``So What Are You Gonna Give Me?: A Transfer Credit Award 
Comparison''--AACRAO Annual Meeting
    <bullet> ``Awarding Credit for Non-Traditional Education and 
Training''--AACRAO Annual Meeting Workshop
    <bullet> ``Awarding Credit for Non-Traditional Education and 
Training''--AACRAO Transfer Conference Workshop
    <bullet> ``Organizational Structures for Transfer Students''--
AACRAO Annual meeting
    <bullet> ``Transfer 101''--AACRAO Annual Meeting
    <bullet> ``How to Better Serve Military Students''--Sloan 
Consortium
    <bullet> APUS also hosted a VA Certifying Official's Workshop in 
Spring 2013 for the colleges and universities located in the eastern 
region of West Virginia
    In an effort to reach even wider audiences, our faculty and staff 
have published a number of articles, contributed to numerous 
publications and engage in a wide variety of social media related to 
educating servicemembers and veterans, such as:
    <bullet> ``Finding Success as a Returning Veteran or Military 
Student,'' published as part of Pearson's ``Identity'' series
    <bullet> LinkedIn group titled ``PTSD and Online Faculty:'' Group 
contains almost 400 members from all over the world
    <bullet> Although APUS is not a member of the Association of Public 
Sector Colleges and Universities (APSCU), the university was asked to 
serve on a Blue Ribbon Taskforce for Military and Veteran Education. 
The results of that task force was the publication of a comprehensive 
guidebook that established best practices and indicators of program 
integrity to which all colleges and universities in America could 
embrace and implement.
    In addition to providing written testimony and serving as a witness 
at the Subcommittee hearing that is the focus of this letter, I was 
invited to testify on September 22, 2011 before the Federal Financial 
Management, Government Information, Federal Services, and International 
Security Subcommittee of the Senate Committee on Homeland Security and 
Governmental Affairs on the topic of ``Improving Educational Outcomes 
for Our Military and Veterans.''
    APUS has a dedicated Veteran's office, which supports the needs of 
Veterans working toward a degree within the university system. Some of 
the operational dimensions that APUS has established in the context of 
that office, and in support of military and veteran students generally 
include the following:
    <bullet> Dedicated teams within the Enrollment Management 
department, Student Advising department, Career Services department, 
and Finance department to assist military and veterans with answers to 
questions specific to their culture and needs
    <bullet> The Student Services office has developed and implemented 
programs to assist Veterans' with resume writing, translating military 
jargon into civilian terminology, mock interview processes, and 
expectations for civilian employment
    <bullet> Mandatory faculty orientation programs to aid in better 
understanding the military and veteran culture
    <bullet> APUS also has a generous transfer credit policy which 
equates to more earned college credit for life experience
    <bullet> APUS is the ``largest online, Student Veteran's Chapter in 
the Country,'' recognized and stated by the parent Student Veterans of 
America organization
    Finally, APUS has worked with the National Association of Veteran's 
Program Administrations (NAVPA) to prove compliance with Executive 
Order 13607, and it was invited by the GAO to participate in 
discussions to help improve educational processes and academic support 
services for veteran students.
    Representative Dave Loebsack (D-IA) asked the following question:
    In your view, what are the specific regulations that institutions 
of higher education must comply with pertaining to veterans and 
servicemembers that are overly burdensome?
    With regard to the notion of regulatory burden, it should be noted 
at the outset that institutions that endeavor to serve military and 
veteran students should be prepared to accept reasonable standards of 
regulatory oversight. Given that the term ``overly burdensome'' is 
relative, some institutions are likely better equipped than others to 
accommodate such oversight, depending on mission, resources, and 
institutional culture. That qualifier aside, the challenges associated 
with the current regulatory environment are generally focused on the 
Departments of Defense and Veterans Administration. One example worth 
noting is the labor-intensive processes associated with compliance with 
various VA and State Approving Agency policies. For instance, one of 
the biggest inhibitors to the ability of institutional certifying 
officials to correctly report enrollment information to the VA is that 
such officials do not have access to a students' VA data. There have 
been discussions in the past around the possibility of establishing 
stakeholder access rights to the eBenefits website, and access to that 
site would provide certifying officials with specific data regarding a 
student's benefit entitlements. It would also make the university's 
task of accurately reporting data to the VA much less complex if it 
could view specific, relevant data, such as the number of entitlements 
remaining, the percentage of eligibility, where and when other schools 
submitted benefits for the student, etc. Given the current state of 
affairs, it is not unusual for the university to submit a benefit 
report for a student to the VA, only to be subsequently informed by the 
VA that the student had exhausted eligibility, thus creating an 
unnecessary burden on the student to find other means to pay for his/
her courses. If colleges and universities had a VA-regulated database, 
many of these issues could be resolved before the student is allowed to 
enroll in courses and later be expected to provide the necessary funds 
from alternative sources.
    There is sound reason to believe that this issue and others could 
be addressed as a result of a re-structuring of the VAOnce system to 
allow for greater reporting from school officials. Frankly, the current 
system is very archaic and is primarily useful only as a data entry 
tool. Fairly commonplace technological upgrades to this system (ability 
to export student data, more robust reporting of student data, and the 
ability to accept a mass batch of VA enrollment certifications for 
students rather than input each enrollment for each term for each 
student) would greatly increase the efficiencies of both the VA 
Regional Office processors and school officials. Both cohorts are 
increasingly taking on roles that were previously the responsibilities 
of VA Regional Processing Office personnel.
    The issue above notwithstanding, I would respectfully rephrase Rep. 
Loebsack's question to reflect the fact that regulations are not simply 
a function of burden, but also one of constraints. The President's call 
for increased access to higher education, and by clear implication, 
increased persistence to graduation without incurring undue financial 
burden, is a mandate that seems to be contradicted by Department of 
Education and Congressional initiatives that would have the effect of 
limiting access and increasing costs. Considering that recent budget 
cuts have eroded tuition assistance benefits for servicemembers, it is 
regrettable that in March, 2013, the Department of Defense added insult 
to injury by issuing Instruction 1322.19--``Voluntary Education 
Programs in the Overseas Area.'' Specifically, Enclosure 3, paragraph 
4d of that policy stipulates that ``Overseas Servicemembers who 
initiate postsecondary programs after the Servicemembers' arrival in 
the overseas duty location may not receive military TA for courses 
offered by non-approved program institutions overseas. This limitation 
will apply to the first postsecondary course requested and successfully 
completed by the Service member.''
    This provision, combined with language contained in the 
``Performance Work Statement (PWS) for Post-Secondary Programs of the 
U.S. Army, U.S. Air Force and U.S. Navy in Europe'' issued by the 
Department of the Army, Europe on June 25, 2013 that prohibits non-
contract schools from displaying educational materials in military 
education centers, limits choice for servicemembers and creates a 
virtual monopoly for a small handful of academic institutions. 
Specifically, the PWS states, ``Non-contract academic institutions will 
not be permitted on installations, and their coursework and programs 
will not be marketed on the installations. Only the contracted academic 
institutions shall participate in education fairs on military 
installations.''
    The spirit and intent of the DoD Voluntary Education Program is to 
provide freedom of choice to servicemembers desiring to pursue their 
educational goals. Restrictive policies such ``Instruction 1322.19--
``Voluntary Education Programs in the Overseas Area'' have the real and 
regrettable effect of limiting educational opportunities for 
servicemembers by forcing them to enroll in programs provided by a 
selected group of institutions that do not necessarily offer the 
desired programs. It should be further stipulated that these recent 
polices implemented by DoD contradict long-standing policy as codified 
in DoD Instruction 1322.08, to wit:
    It is DoD policy, under Section 2005 and 2007 of title 10 United 
States Code that:
    4.1. Programs shall be established and maintained in the Department 
of Defense that provide servicemembers with educational opportunities 
that they may participate voluntarily during their off-duty time or at 
such other times as authorized by Military Services' policies.
    4.2. Voluntary education programs shall provide educational 
opportunities comparable to those available to citizens outside the 
military, be available to all active duty personnel regardless of their 
duty location, and include courses and services provided by accredited 
postsecondary vocational and technical schools, colleges, and 
universities. Programs may be provided as traditional classroom 
instruction or through distance education.
    I have no doubt that the Department's intentions were honorable, 
but I am equally convinced that in issuing this policy, it did not take 
into full account the best interests of America's military personnel, 
nor does its policy support the President's national vision for an 
educated society. I believe that those of us who strive to provide 
educational opportunities, the various branches of government, and all 
military agencies can do a better job of acknowledging our indebtedness 
to servicemembers and veterans by respecting their ability to make 
sound decisions, and affording them the prerogative to attend the 
institutions of their choice.
    As stated during my oral comments to your Committee, I consider it 
a distinct privilege to be asked to represent APUS in the context of 
that hearing, and I remain willing to provide additional testimony upon 
request.
                                 ______
                                 
                                             U.S. Congress,
                                  Washington, DC, November 6, 2013.
Mrs. Kimrey W. Rhinehardt, Vice President,
Federal and Military Affairs, the University of North Carolina, 910 
        Raleigh Road, Chapel Hill, NC 27514.
    Dear Mrs. Rhinehardt: Thank you for testifying before the 
Subcommittee on Higher Education and Workforce Training at the hearing 
entitled, ``Keeping College Within Reach: Supporting Higher Education 
Opportunities for America's Servicemembers and Veterans,'' on 
Wednesday, September 11, 2013. I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than November 22, 2013 for inclusion in the final hearing record. 
Responses should be sent to Amy Jones or Emily Slack of the committee 
staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                 Virginia Foxx, Chairwoman,
           Subcommittee on Higher Education and Workforce Training.
                    chairwoman virginia foxx (r-nc)
    In your written testimony, you talked about the university's 
transfer of credit policies. Can you elaborate more about that and how 
those policies help student veterans?
                  representative richard hudson (r-nc)
    1. Mrs. Rhinehardt, by my count you must contend with five separate 
federal agencies in trying to serve student veterans and military 
students: the Department of Education, the Department of Veterans 
Affairs, the Department of Defense, the Consumer Financial Protection 
Bureau and the Department of Justice. Is that correct or are there 
other agencies that have regulations with which you must also comply?
    2. In the President's Executive Order he directs the Secretary of 
Education to collect information on the amount of funding received 
pursuant to the Post-9/11 GI Bill and the Tuition Assistance Program. I 
am aware that the department, through IPEDS, has started the process of 
requiring this information of institutions of higher education. Is this 
correct?
    3. Part of the UNC SERVES initiative is to evaluate best practices 
for improving access, retention, and graduation of student veterans on 
campus. What are some of those best practices and do these differ from 
what the campuses are doing to improve outcomes for all students?
                  representative dave loebsack (d-ia)
    In your view, what are the specific regulations that institutions 
of higher education must comply with pertaining to veterans and 
servicemembers that are overly burdensome?

    Mrs. Rhinehardt's Response to Questions Submitted for the Record

                            chairwoman foxx
    In your written testimony, you talked about the university's 
transfer credit policies. Can you elaborate more about that and how 
those policies help student veterans?

    A: The University of North Carolina recognizes the value of the 
education, training, and experience that military students bring to the 
university. The university and its constituent campuses are working to 
establish a process by which this learning can be evaluated for 
possible course credit. Such learning may include, but will not be 
limited to, recruit training, military occupational specialty (MOS) 
training and education, Defense Language Institute foreign language and 
coursework exams, Community College of the Air Force (CCAF) coursework, 
College-Level Examination Program (CLEP), and DANTES Standardized 
Subject tests.
    The American Council on Education (ACE) credit equivalency 
recommendations serve as the standard reference for recognizing the 
learning acquired through military service. Constituent campuses, 
however, reserve the right to evaluate military learning independent of 
ACE recommendations and evaluation.
                          hon. richard hudson
    By my count, you must contend with five separate federal agencies 
in trying to serve student veterans and military students: the 
Department of Education, the Department of Veterans Affairs, the 
Department of Defense, the Consumer Financial Protection Bureau, and 
the Department of Justice. Is that correct, or are there other agencies 
that have regulations with which you must also comply?

    A: Yes, but actually within the DOD we are also required to work 
with each branch of service on addenda to the MOUs so that adds the US 
Army, Navy, Air Force and Marines in addition to the five agencies that 
you mentioned. Other than for the Department of Education, education is 
not the primary mission of the federal agencies. These other agencies 
don't always understand higher education or the diversity of schools 
and practices, so their regulatory efforts are typically misguided and 
problematic for schools.

    In the President's Executive Order, he directs the Secretary of 
Education to collect information on the amount of funding received 
pursuant to the Post-9/11 GI Bill and the Tuition Assistance Program. I 
am aware that the department, through IPEDS, has started the process of 
requiring this information of institutions of higher education. Is this 
correct?

    A: Yes, IPEDS will require that institutions of higher education 
report a number of new data points as it relates to veterans and active 
duty service members. We will report the number of undergraduate and 
graduate students receiving Post 9/11 benefits as well as the total 
dollar amount of tuition and fee benefits awarded to them through the 
institution. We will also be required to do this for active duty 
service members using tuition assistance. The ``preview year'' is the 
2013-2014 academic year with the full requirement beginning in the 
2014-2015 academic year. Additionally, IPEDS will collect additional 
data for the Institutional profile such as whether or not the 
institution participates in the Post-9/11 GI Bill and Yellow Ribbon 
Programs, offers credit for military training, provides a dedicated 
point of contact for support services for veterans, military service 
members, and their families, has a recognized student veteran 
organization, is a Member of Servicemembers Opportunity Colleges (SOC), 
as well as the URL for tuition policies specifically related to 
veterans and military service members.
    Both the VA and the DOD should be able to provide this information 
to the Department of Education without requiring new data from 
institutions of higher education. It would be great if both agencies 
issued an annual demographic report that outlined this information. It 
would be beneficial to institutions and the taxpayer to have access to 
this data.

    Part of the UNC SERVES initiative is to evaluate best practices for 
improving access, retention, and graduation of student veterans on 
campus. What are some of those best practices and do these differ from 
what the campuses are doing to improve outcomes for all students?

    A: Although UNC system campuses seek to provide the utmost quality 
education and assistance necessary to improve outcomes for all 
students, the system recognizes that military and student veterans 
often have needs different to their civilian student counterparts. The 
UNC system seeks to fulfill those needs through the UNC SERVES 
initiative, which includes a multitude of best practices 
recommendations.
    Some of the best practices recommendations include a Student 
Affairs Liaison specifically for military-affiliated students, military 
or veteran orientation sessions, operational tracking of active-duty 
military and veteran student populations, admissions counselors for 
military-affiliated students, classification of military students as 
transfer students, and a dedicated web presence for military-affiliated 
students.
    Please see the full table (attached) for a more comprehensive list 
and as each item pertains to the individual campuses.
                           hon. dave loebsack
    In your view, what are the specific regulations that institutions 
of higher education must comply with pertaining to veterans and 
servicemembers that are overly burdensome?

    A: Other than for the Department of Education, education is not the 
primary mission of the federal agencies. These agencies don't always 
understand higher education or the diversity of schools and practices, 
so their regulatory efforts are typically misguided and problematic for 
schools. The MOU is an example for DoD. The VA has numerous examples, 
but the debt offset problem comes to mind, as well as the fact that the 
VA does not have a way to communicate with institutions. Instead, it 
often sends notices by postal mail and sometimes one location will get 
notices for several campuses since the VA identifies institutions with 
a very different system than the Department of Education's OPEID 
number.
    It would be helpful to have a webpage similar to IFAP that would 
post all the regulatory and sub-regulatory guidance for GI bill 
benefits, so institutions have one place to look. Finding letters 
outlining VA policies is difficult and burdensome.
                                 ______
                                 
                                             U.S. Congress,
                                  Washington, DC, November 6, 2013.
Dr. Ken Sauer, Senior Associate Commissioner for Research and Academic 
    Affairs,
Indiana Commission for Higher Education, 101 W. Ohio Street, Suite 550, 
        Indianapolis, IN 46204-1984.
    Dear Dr. Sauer: Thank you for testifying before the Subcommittee on 
Higher Education and Workforce Training at the hearing entitled, 
``Keeping College Within Reach: Supporting Higher Education 
Opportunities for America's Servicemembers and Veterans,'' on 
Wednesday, September 11, 2013. I appreciate your participation.
    Enclosed is an additional question submitted by a member of the 
subcommittee after the hearing. Please provide a written response no 
later than November 22, 2013 for inclusion in the final hearing record. 
Responses should be sent to Amy Jones or Emily Slack of the committee 
staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                 Virginia Foxx, Chairwoman,
           Subcommittee on Higher Education and Workforce Training.
                  representative dave loebsack (d-ia)
    In your view, what are the specific regulations that institutions 
of higher education must comply with pertaining to veterans and 
servicemembers that are overly burdensome?
                                 ______
                                 
    [Response to questions submitted to Dr. Sauer follow:]
                                                       May 9, 2014.
Hon. Virginia Foxx, Chairwoman,
Subcommittee on Higher Education and Workforce Training, U.S. House of 
        Representatives, 2181 Rayburn House Office Building, 
        Washington, DC 20515.
    Dear Representative Foxx: I write about your request to respond to 
the following question posed by Representative Loebsack:

    ``In your view, what are the specific regulations that institutions 
of higher education must comply with pertaining to veterans and 
servicemembers that are overly burdensome?''

    To help craft my answer, I sent a request to the academic officers 
of all of our public two- and four-year institutions to solicit their 
reactions to Representative Loebsack's question. The majority of our 
colleges and universities responded, and in a few cases, with 
considerable detail.
    Most institutions identified problems that in one way or another 
focused on burdens associated with supplying detailed information about 
students to the Veterans Administration and on inefficiencies in 
accessing related information so benefit claims could be processed in a 
timely manner. Other concerns identified by the institutions included: 
the frequency with which the Department of Defense changed the 
requirements of the MOUs institutions sign with the Department; lack of 
consistency in definitions used by different federal agencies with 
respect to veterans; the requirement to upload extensive information 
about the institution, such as course catalogs, class schedules, and 
tuition rate charts; and confusion in communicating to veterans the 
differences among various federal and state benefit programs.
    In reflecting on the institutional responses, Indiana Commission 
colleagues and I have identified some potential ways for addressing the 
problems identified above. Though we offer these as conversation 
starters, we believe that each of the following is rooted in a sound 
idea that deserves further consideration:
    1. Have the Veterans Affairs Certifying Official (VACO) at each 
institution be a certified user of the VA's VETRECS computer system, 
which would enable them to more efficiently access information needed 
to carry out their responsibilities;
    2. Integrate the billing systems of the VA so that information 
about each veteran and each course they take only needs to be entered 
once by the VACO, rather than entering duplicate information for each 
benefit, for which the veteran is eligible. Not only would this reduce 
the possibility for data entry errors, but it would also enable better 
access to this information by VACOs at other institutions across the 
country, should the veteran transfer to another institution anywhere in 
the country;
    3. Rather than having the VACOs tediously enter data on each course 
taken by each veteran--including course titles, grades, start dates, 
and end dates, as currently required by GoArmyEd, for example--have the 
VA accept this information through a college transcript, which could be 
transmitted electronically, ideally in a standardized format, via 
commercial vendors widely used by institutions and states; and
    4. Consider modifying the contracts between the VA and the State 
Approving Agencies (SAAs), such that SAA Directors can play a more 
active role in educating servicemembers and their families about their 
eligibility for educational benefits.
    We would be happy to provide additional information about the 
problems that our institutions have identified and constructive 
suggestions about potential ways these problems might be addressed.
    Last September, I had the privilege of providing testimony before 
the Subcommittee on the Multi-State Collaborative on Military Credit. I 
am pleased to report that the Collaborative now has eleven member 
states and that a meeting of state representatives will be held on May 
27-28. The gathering, which will be held in Indianapolis, will also 
include in-person representation from the Department of Defense, 
Veterans Administration, DANTES, Servicemembers Opportunity Colleges, 
Council of College and Military Educators, Council for Adult and 
Experiential Learning, CollegeSource, National Governors Association, 
Midwest Higher Education Compact, and State Higher Education Executive 
Officers. The Collaborative's commitment to better meeting the needs of 
our servicemembers and veterans remains firm and we pledge our best 
efforts to carry through on this commitment.
    Thank you for the opportunity to provide testimony to the 
Subcommittee and to respond to Representative Loebsacks's question.
            Sincerely,
                                          Ken Sauer, Ph.D.,
          Senior Associate Commissioner and Chief Academic Officer.
                                ------                                

    [Whereupon, at 1:23 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
